<html>
<title> - THE HEALTH AND ENVIRONMENTAL IMPACTS OF URANIUM CONTAMINATION IN THE NAVAJO NATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 THE HEALTH AND ENVIRONMENTAL IMPACTS OF URANIUM CONTAMINATION IN THE 
                             NAVAJO NATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2007

                               __________

                           Serial No. 110-97

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
45-611 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 23, 2007.................................     1
Statement of:
    Arthur, George, chairman, Resources Committee, Navajo Nation 
      Council; Stephen Etsitty, executive director, Navajo Nation 
      Environmental Protection Agency; Doug Brugge, Ph.D., M.S., 
      associate professor, Department of Public Health and Family 
      Medicine, Tufts University School of Medicine; Larry J. 
      King, member, Navajo Nation; Edith Hood, member, Navajo 
      Nation; Phil Harrison, member, Navajo Nation; and Ray 
      Manygoats, member, Navajo Nation...........................    23
        Arthur, George...........................................    23
        Brugge, Doug.............................................    39
        Etsitty, Stephen.........................................    30
        Harrison, Phil...........................................    82
        Hood, Edith..............................................    77
        King, Larry J............................................    44
        Manygoats, Ray...........................................    89
    Nastri, Wayne, Regional Administrator, U.S. Environmental 
      Protection Agency, Region 9, accompanied by Keith Takata, 
      Director, Region 9 Superfund Division; David Geiser, Deputy 
      Director, Office of Legacy Management, Department of 
      Energy; Charles L. Miller, Director, Office of Federal and 
      State Materials and Environmental Management Programs, U.S. 
      Nuclear Regulatory Commission, accompanied by Francis 
      Cameron, Assistant General Counsel for Rulemaking and Fuel 
      Cycle and William Von Till, Branch Chief for Uranium 
      Recovery Licensing; Robert G. McSwain, Acting Director, 
      Indian Health Service, accompanied by Rear Admiral Douglas 
      G. Peter, M.D., Deputy Director, Chief Medical Officer, 
      Navajo Area, IHS; Gary Hartz, Director, IHS Office of 
      Environmental Health and Engineering; and Jerry Gidner, 
      Director, Bureau of Indian Affairs, U.S. Department of 
      Interior...................................................   124
        Geiser, David............................................   130
        Gidner, Jerry............................................   154
        McSwain, Robert G........................................   146
        Miller, Charles L........................................   140
        Nastri, Wayne............................................   124
Letters, statements, etc., submitted for the record by:
    Arthur, George, chairman, Resources Committee, Navajo Nation 
      Council, prepared statement of.............................    26
    Brugge, Doug, Ph.D., M.S., associate professor, Department of 
      Public Health and Family Medicine, Tufts University School 
      of Medicine, prepared statement of.........................    41
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    14
    Etsitty, Stephen, executive director, Navajo Nation 
      Environmental Protection Agency, prepared statement of.....    34
    Geiser, David, Deputy Director, Office of Legacy Management, 
      Department of Energy, prepared statement of................   132
    Gidner, Jerry, Director, Bureau of Indian Affairs, U.S. 
      Department of Interior, prepared statement of..............   155
    Harrison, Phil, member, Navajo Nation, prepared statement of.    85
    Hood, Edith, member, Navajo Nation, prepared statement of....    79
    King, Larry J., member, Navajo Nation; Edith Hood, member, 
      Navajo Nation, prepared statement of.......................    46
    Manygoats, Ray, member, Navajo Nation, prepared statement of.    91
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota, article entitled, ``Yellowcake Blues''.   101
    McSwain, Robert G., Acting Director, Indian Health Service, 
      prepared statement of......................................   148
    Miller, Charles L., Director, Office of Federal and State 
      Materials and Environmental Management Programs, U.S. 
      Nuclear Regulatory Commission, prepared statement of.......   142
    Nastri, Wayne, Regional Administrator, U.S. Environmental 
      Protection Agency, Region 9, prepared statement of.........   126
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico, prepared statement of.......................   116
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   174
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
        Prepared statement of....................................     4
        Prepared statement of Bluewater Valley Downstream 
          Alliance...............................................    17


 THE HEALTH AND ENVIRONMENTAL IMPACTS OF URANIUM CONTAMINATION IN THE 
                             NAVAJO NATION

                              ----------                              


                       TUESDAY, OCTOBER 23, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
2154, Rayburn House Office Building, Hon. Henry Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, 
Watson, Yarmuth, Braley, Norton, McCollum, Welch, Davis of 
Virginia, Shays, Platts, Issa, Bilbray, and Jordan.
    Also present: Representatives Udall and Matheson.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Greg Dotson, chief environmental counsel; Andy 
Schneider, chief health counsel; Jeff Baran, counsel; Teresa 
Coufal, deputy clerk; Caren Auchman and Ella Hoffman, press 
assistants; Zhongrui ``JR'' Deng, chief information officer; 
Leneal Scott, information systems manager; Rob Cobbs, staff 
assistant; David Marin, minority staff director; Larry 
Halloran, minority deputy staff director; Alex Cooper, minority 
professional staff member; Larry Brady, minority senior 
investigator and policy advisor; Brian McNicoll, minority 
communications director; and Benjamin Chance, minority clerk.
    Chairman Waxman. The meeting of the committee will please 
come to order.
    Throughout this year, our committee has held a series of 
hearings on making Government work again. We focused on 
programs or agencies that once were effective but are now 
broken or dysfunctional. Today's hearing is a variation on that 
theme.
    This morning we are looking at an instance where the 
Government has never worked effectively. It has been a 
bipartisan failure for over 40 years. It's also a modern 
American tragedy. For decades the Navajo Nation has had to 
contend with the deadly consequences of radioactive pollution 
from uranium mining and milling. Last year, a superb series of 
articles in the Los Angeles Times by Judy Pasternak described 
the impacts of the pervasive contamination. It has been 
devastating for the Navajo people and their lands.
    The primary responsibility for this tragedy rests with the 
Federal Government, which holds the Navajo lands in trust for 
the tribes. Our Government leased the land for uranium mining, 
purchased the uranium yellowcake produced from the mines to 
supply our nuclear weapons stockpile, and then allowed the 
operators of the mines and mills to walk away without cleaning 
it up and without doing anything about the resulting 
contamination.
    The Federal Government's responsibility dates back to the 
late 1940's when mining began under the Truman administration. 
The contamination continued and remained largely unaddressed 
through the next 10 administrations, Republican and Democrat 
alike. As we will hear today, the Federal Government has over 
the past 30 years taken some important steps to help the Navajo 
reclaim some of their land, but as we will also hear today, 
much contamination remains both on the surface and in the 
groundwater. It is the Federal Government's responsibility to 
see that this contamination is fully remediated.
    As you can see from this map, and we have the map on the 
wall there, the Navajo Nation covers an area larger than the 
State of West Virginia. It lies within the States of Arizona, 
New Mexico and Utah. Today over 250,000 Navajos are members of 
the Navajo Nation, which has its own government. Between the 
1940's and the 1980's, millions of tons of uranium ore were 
mined from the Navajo Nation. Private companies mined the ore 
in order to supply the Federal Government with the uranium 
yellowcake it needed to build a nuclear weapons stockpile for 
the cold war.
    For many years, the U.S. Government was the sole customer 
for this uranium. After the mining ended in the late 1980's, 
literally hundreds of radioactive mines in the Navajo Nation 
were abandoned. The companies that had leased the lands simply 
walked away without cleaning them up. Many of these sites were 
abandoned in the 1950's, 1960's and 1970's. In most cases, the 
mines were left wide open with no warnings about the dangers 
they posed. Five mill sites where uranium ore was processed 
were also left behind, along with their giant mounds of 
radioactive uranium filings.
    Over the years, open pit mines filled with rain and Navajos 
used the resulting pools for drinking water and to water their 
herds. Mill tailings and chunks of uranium ore were used to 
build foundations, floors and walls for some Navajo homes. 
Families lived in these radioactive structures for decades. 
Radioactive dust from abandoned mines and waste piles blew in 
the air and were inhaled by those who lived nearby. Navajo 
children played in the mines and the piles of radioactive 
debris. They drank contaminated water that came straight from 
the mines.
    This isn't something that only happened during a bygone era 
when schoolchildren kneeled under their desks during nuclear 
bomb drills and Americans built underground bomb shelters in 
their backyards. Navajo kids were swimming in open pit uranium 
mines in the 1990's. When the U.S. EPA took readings at one 
mine site, the radium levels were over 270 times the EPA 
standard. That was last year. And American citizens are still 
drinking contaminated water, breathing in radioactive dust, and 
likely living in radioactive homes today. That's happening 
today, right now.
    Because of this contamination, the Navajo people, 
especially those living near the abandoned mines and the former 
mill sites, are at higher risk for cancer and for kidney 
failure. Unfortunately, we do not have a full understanding of 
the extent of this risk because there has never been a 
comprehensive health survey of the effects of the surface and 
groundwater contamination. But we are fortunate to have with us 
today individuals who live in the Navajo Nation and can share 
their personal experiences. Although they come from different 
areas of the Navajo Nation, and in some cases live hundreds of 
miles apart, we will hear about the very similar threats and 
devastating impacts.
    In recent years, Federal agencies have taken some initial 
steps toward grappling with this problem. We will hear about 
the work these agencies have done, and are doing, but will also 
hear that much more needs to be done. If a fraction of the 
deadly contamination the Navajos live with every day had been 
in Beverly Hills or any wealthy community, it would have been 
cleaned up immediately. As a matter of fact, there was an area 
in an upper income community in Colorado where they were 
exposed to the remnants of uranium mining, and that was cleaned 
up right away. But a different standard applied to Navajo 
lands, half measures and outright neglect has been the official 
response. It is hard to review this record and not feel 
ashamed. What has happened just isn't right.
    That is why we are holding today's hearing. We want to know 
what has to be done, who needs to do it and what resources will 
be required to fix this. No member of this committee represents 
Navajo lands. But we all want to know how we will finish 
cleaning up the mess that was created by the Federal 
Government's past need for uranium and the ensuing failure to 
ensure that the mines and mills that produced this uranium did 
not contaminate the land and the groundwater.
    Even as we hold this hearing, there is new interest in 
resuming mining on or near the Navajo Nation. I don't have any 
special expertise to evaluate the wisdom of that prospect. As a 
general rule, however, I think we ought to correct the wrongs 
of the past before inflicting new damage. And we ought to make 
sure that the mistakes of the past aren't repeated. I look 
forward to hearing from our witnesses and to working with all 
of them to correct this unacceptable situation as quickly as 
possible.
    Mr. Davis.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T5611.001

[GRAPHIC] [TIFF OMITTED] T5611.002

[GRAPHIC] [TIFF OMITTED] T5611.003

[GRAPHIC] [TIFF OMITTED] T5611.004

[GRAPHIC] [TIFF OMITTED] T5611.005

[GRAPHIC] [TIFF OMITTED] T5611.006

[GRAPHIC] [TIFF OMITTED] T5611.007

[GRAPHIC] [TIFF OMITTED] T5611.008

    Mr. Davis of Virginia. Thank you, Mr. Chairman, for holding 
this hearing.
    Renewed interest in nuclear energy has unearthed a sad and 
dangerous legacy from the first atomic era. Those looking to 
mine uranium to fuel future reactors face a desolate landscape 
littered with abandoned mines and mill sites, still generating 
unknown levels of health and environmental damage. That history 
of negligence stretches from the Manhattan Project, through the 
cold war and perhaps beyond.
    The tragedy is compounded by the fact Native American lands 
and all those living there were exploited by the uranium 
processing operations. They were left to live and die with the 
potentially toxic after-effects.
    The repercussions of reckless uranium extractions fall 
particularly harder on the Navajo Nation, that saw the promise 
of jobs and economic growth fade into the lingering curse of 
contaminated lands, fouled water and likely health effects that 
could haunt them for generations.
    So this hearing is an important opportunity to assess what 
national and tribal governments are doing to address the 
environmental and public health impacts of uranium pollution 
and to discuss what more needs to be done to protect health and 
repair the earth after uranium mining. The limited steps taken 
so far by Federal agencies, even to determine the scope of the 
problem, offer little hope those efforts will find adequate 
solutions any time soon. The old adage about too many chiefs 
comes to mind.
    With the Department of Energy, the Environmental Protection 
Agency, the Nuclear Regulatory Commission and the Department of 
Interior all involved to various degrees in these issues, each 
can point to the others when hard questions arise about legal 
authority and spending priorities. Interior's Bureau of Indian 
Affairs and the Indian Health Service face well-documented 
challenges meeting their basic obligations to Native American 
communities. Add to that dysfunctional mix the obligation to 
respect the sovereign rights of tribal governments, and it 
becomes clear by the large-scale problems the uranium 
contamination has languished for too long.
    Meanwhile, serious cleanup is underway at only one of the 
more than 500 mines EPA found on Navajo lands. Baseline health 
surveys to determine the incidence of radiation-related 
illnesses among Navajo families exposed to contaminated ground 
and water are just getting underway. The power and skill of all 
the agencies needs to be marshaled to focus and accelerate 
cleanup efforts, to cap the 40 most dangerous open mines, to 
limit groundwater contamination and to distinguish discrete 
uranium-related health consequences from other public health 
challenges faced by the Navajos.
    Not surprisingly, there is talk of litigation to sort out 
the myriad of conflicting jurisdictions, legal authorities and 
potential liabilities. That may be necessary. It may be 
inevitable. But protracted and costly lawsuits would also 
freeze an unacceptable status quo while diverting scarce fiscal 
resources from cleanup to the courtroom.
    I hope today's testimony will lead to a candid discussion 
of the best path to justice for the Navajo people and the best 
policies to address the environmental damage and public health 
threats posed by uranium mining. Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.009
    
    [GRAPHIC] [TIFF OMITTED] T5611.010
    
    Chairman Waxman. Thank you, Mr. Davis.
    I want to ask unanimous consent that members who represent 
the Navajo Nation, Mr. Matheson, Mr. Udall and Mr. Renzi, be 
permitted to participate in this hearing. Without objection, so 
ordered.
    I would also ask unanimous consent that this statement that 
I have, and I think it's been reviewed by the minority, 
unanimous consent that the statement from the Bluewater Valley 
Downstream Alliance be included in the record. Without 
objection, that will be the order.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.011
    
    [GRAPHIC] [TIFF OMITTED] T5611.012
    
    [GRAPHIC] [TIFF OMITTED] T5611.013
    
    [GRAPHIC] [TIFF OMITTED] T5611.014
    
    Chairman Waxman. Because we have so many witnesses on our 
panels today, we are going to limit the opening statements to 
Mr. Davis' and mine and to the chairman and the ranking member 
of the Domestic Policy Subcommittee. Mr. Kucinich.
    Mr. Kucinich. I thank the Chair for holding this hearing.
    Native Americans have been victims of an extraordinary 
level of exploitation and injustice. This injustice has 
extended over hundreds of years. They have borne a 
disproportionate burden of the toxic legacy from this country's 
pursuit of nuclear weapons and nuclear power. This is a topic 
that has been important to me for a long time.
    In this classic environmental justice story, we see how 
long native peoples have been burdened with inhumane levels of 
contamination and we see how long it can take just to begin to 
undo the damage that the contamination brings. The stories we 
will hear today will also make clear that quests for power, be 
they political or electrical, have no respect for life and 
exact an unacceptable cost to human health and the environment.
    The EPA guesses that there are about 520 abandoned uranium 
mines in the Navajo Nation and 1,200 abandoned mines in the 
area. The Navajo Nation is home to five old uranium mills. Each 
of the mill sites and mine sites represents a potential 
groundwater contaminationsite, in addition to being a source of 
air and soil contamination. There are many potential exposure 
routes: children play in the water that accumulates in the 
radioactive tailing piles; homes and hogans are built out of 
material that is radioactive; windblown dust from tailings is 
inhaled; groundwater is contaminated with uranium and its 
byproducts; wildlife and plant life concentrate the 
contamination and become food for other wildlife or for Navajo 
living off the land.
    Uranium can be toxic in two ways. First, its properties as 
a chemical confer an ability to irreversibly destroy parts of 
the kidney when acting in isolation. But like lead and mercury, 
it is a metal which interacts with the human body. Native 
Americans are known to experience disproportionately high 
levels of lead poisoning. When uranium and lead both make their 
way into a person, the toxic effect on the kidney can be 
additive and even synergistic.
    Uranium is also toxic because it naturally decays into 
other elements like radium, thorium and radon, each of which is 
also radioactive. Radon alone is the No. 2 cause of lung cancer 
in the United States, behind smoking.
    The industrial process of extracting and concentrating 
uranium uses a host of other highly toxic compounds like 
various acids and cyanide, which are common mine tailing 
contaminants, and of course, there are other elements which co-
occur with uranium, like arsenic and fluoride, which are left 
behind when uranium is refined. Each of these compounds bears 
its own list of health effects, and each combination of two or 
three or more of these compounds brings their own set of health 
effects. It could take generations just to completely 
understand the health effects of all these sites in question, 
making things worse. It is a formidable challenge just to 
understand the magnitude of the contamination; so much so, it 
hasn't even been done yet. No comprehensive review of 
groundwater contamination of all the mine sites has been done. 
No comprehensive review for the presence of elevated levels of 
radiation in Navajo houses has been done, even though there are 
dozens known to have been built with radioactive materials. No 
comprehensive review of the health effects of the contamination 
from the mines and mills has been done. There is no way we can 
begin to address the problem if we can't define it.
    Mr. Chairman, one estimate I have heard is that the entire 
cleanup cost would be around $500 million. I think that is 
really low. Efforts just to clean up the groundwater at three 
of the old mill sites on the Navajo Nation are predicted to 
take 20 years. Already the contamination has spanned 
generations and will span many more if we continue the current 
pace of cleanups.
    Some effects can't be cleaned. Before the mines were 
opened, the Navajo way of life was heavily dependent on natural 
resources, which fostered a healthy respect for the 
environment. Not only did they rely on it for clean water and 
abundant food, but they incorporated it into their customs, 
their religion and their way of life. Carol Marxim and Perry 
Charlie pointed out in their chapter of the Navajo People and 
Uranium Mining that the contamination of livestock, of the 
medicinal herbs they use, and of the water bodies their 
children played in changed the view of the land that was 
embraced and used as a conceptual center for their way of life. 
After the contamination, they feared it.
    It is hard to imagine how destabilizing it would be if we 
thought radioactive contamination permeated all that we rely on 
to be safe and clean. Now, 60 years after the first uranium 
contamination began, there are corporations that want to reopen 
some of the very same mines and extract more uranium for 
nuclear power plants. Never mind the contamination already 
created that we are trying to define, let alone clean up. Never 
mind the permanent social damage inflicted by this 
contamination. Never mind that nuclear power is nowhere near 
economical. Never mind the lack of viable or safe storage 
facilities for the waste that will continue to be toxic for 
thousands of years.
    Mr. Chairman, this is an important hearing, not only 
because it gives a chance for our Native brothers and sisters 
to be able to bring to this committee their story, but it is an 
important opportunity to begin to put a focus on people from 
this nuclear uranium mining industry. Because they have a story 
to be told too, and I hope that when it is told under oath, we 
will be given an opportunity to get to the bottom of what they 
are up to.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Kucinich.
    We will hold the record open for any Member that wishes to 
insert an opening statement for this hearing.
    Our first panel represents the Navajo Nation. The Honorable 
George Arthur is chairman of the Resources Committee of the 
Navajo Nation Council. The Honorable Stephen Etsitty is 
Director of the Navajo Nation Environmental Protection Agency. 
Dr. Doug Brugge is an associate professor in the Department of 
Public Health and Family Medicine at Tufts University School of 
Medicine in Boston, MA. Uranium mining and the Navajo Nation 
has been a major focus of his research.
    Mr. Larry King is a member of the Navajo Nation who lives 
in Gallup, NM. Ms. Edith Hood is a member of the Navajo Nation 
who lives in Church Rock, NM. Mr. Phil Harrison is a member of 
the Navajo Nation who lives in Window Rock, AZ. And Mr. Ray 
Manygoats is a member of the Navajo Nation who lives in Tuba 
City, AZ.
    I want to thank all of you for being here and for your 
willingness to testify before us. It is the policy of this 
committee that all witnesses that appear before us take an 
oath, so I would like to ask you to rise and raise your right 
hands, if you would.
    [Witnesses sworn.]
    Chairman Waxman. Thank you. The record will show that each 
of the witnesses answered in the affirmative.
    Your prepared statements will be in the record in their 
entirety. We would like to ask you to limit the oral 
presentation to around 5 minutes. We will have a clock that 
will be green and then will turn to yellow for a minute and 
then red, which will indicate that the 5-minutes is up.
    Mr. Arthur, why don't we start with you.

  STATEMENTS OF GEORGE ARTHUR, CHAIRMAN, RESOURCES COMMITTEE, 
  NAVAJO NATION COUNCIL; STEPHEN ETSITTY, EXECUTIVE DIRECTOR, 
  NAVAJO NATION ENVIRONMENTAL PROTECTION AGENCY; DOUG BRUGGE, 
 PH.D., M.S., ASSOCIATE PROFESSOR, DEPARTMENT OF PUBLIC HEALTH 
AND FAMILY MEDICINE, TUFTS UNIVERSITY SCHOOL OF MEDICINE; LARRY 
  J. KING, MEMBER, NAVAJO NATION; EDITH HOOD, MEMBER, NAVAJO 
     NATION; PHIL HARRISON, MEMBER, NAVAJO NATION; AND RAY 
                MANYGOATS, MEMBER, NAVAJO NATION

                   STATEMENT OF GEORGE ARTHUR

    Mr. Arthur [Greeting in native tongue]. Good morning, Mr. 
Chairman and honorable members of this committee. Before I 
proceed with my statement, I would like to acknowledge that the 
Navajo Nation is concerned and also offers its prayers for the 
Congresswoman from California that is present with us in the 
devastation of the fires that they are experiencing. We would 
like to send our prayers to the great State of California at 
this time.
    Thank you, Mr. Chairman Waxman and the members of the 
committee. I am George Arthur, chairman of the Resources 
Committee of the Navajo Nation Council. The Resources Committee 
oversees the Nation's minerals and water resources and the 
Navajo Nation's Environmental Protection Agency, as well as 
other natural resources within the Navajo Nation. I speak here 
as a representative of the Navajo Nation government.
    Few members of the committee are from the West. Many may 
not have ever been to an Indian reservation like the Navajo 
Reservation. I would like to give you a flavor of my land and 
my culture.
    The Navajo-Federal relationship is based on two treaties, 
the second one signed in 1868 after about one-third of my 
ancestors died in Federal concentration camps. Navajo Indian 
Country now includes about 17 million acres of land within 
Arizona, New Mexico and Utah. Navajo land is blessed with 
mineral resources. But the Navajo people have not benefited 
much from these minerals until recently, because the 
Reservation has served, in the words of a Government study, as 
an ``energy colony'' for the United States. Navajo warriors 
have served the United States with distinction in all major 
conflicts since World War I, since before the Navajo Nation 
became citizens and since before the Navajo people became 
voters. Within these conflicts came the great representatives 
of the Navajo Code Talkers, whom you may have heard of.
    The Navajo Nation is not a rich tribe. Because of Federal 
neglect and historic discrimination by the State, the Navajo 
Nation had an infrastructure deficit of $3.7 billion in 1975, 
and that deficit is much greater today. We have few paved 
roads. We have few hospitals or clinics, and substandard 
schools. Many of our people lack running water and electricity. 
Unemployment is near 50 percent.
    The Navajo Nation has no casinos, nor the surrounding 
affluent population needed for substantial gaming revenues. We 
rely solely on the land and on the scarce water resources 
available to us. We live, and we will continue to live, within 
the four sacred mountains.
    We have maintained our language and traditions, including 
one where the umbilical cords of Navajo babies are buried in 
the land of their parents. The Navajos' ties to the land where 
they are born is profound. We don't just move when conditions 
become difficult. As a Federal district court observed in a 
case where the United States unsuccessfully sought to relocate 
a Navajo woman from land where she had lived all her life, 
relocating a Navajo from her ancestral land ``is tantamount to 
separating the Navajo from her spirit.''
    Uranium mining and milling on and near the Reservation has 
been a disaster for the Navajo people. The Department of the 
Interior has been in the pocket of the uranium industry, 
favoring its interests and breaching its trust duties to Navajo 
mineral owners. We are still undergoing what appears to be a 
never-ending Federal experiment to see how much devastation can 
be endured by a people and a society from exposure to radiation 
in the air, in the water, in mines and on the surface of the 
land. We no longer are willing to be the subjects of that 
ongoing experiment.
    In legislation passed in 2005, the Navajo Nation Council 
made detailed findings about the devastation caused by uranium 
mining and processing. We found that ``the social, cultural, 
natural resources and economic damages to the Navajo Indian 
Nation from past uranium mining and processing is ongoing due 
to: (i) the continuing need for full monetary compensation of 
former Navajo uranium workers and their family workers for 
their radiation and mining-induced diseases; (ii) the presence 
of hundreds of unremediated or partially remediated uranium 
mines, tailing piles and waste piles located in Navajo Indian 
Country; and (iii) the absence of medical studies on the health 
status of Navajos who have lived in uranium mining-impacted 
communities.
    Because of these and other findings, the Navajo Nation has 
banned uranium mining and processing within Navajo country.
    Many of us were and are directly affected by uranium mining 
and processing in Navajo country. The largest release of 
radioactive contamination in the United States occurred within 
the Church Rock spill, where 94 million gallons of radioactive 
sludge from a United Nuclear Corp. facility poured into the 
wash that Navajo people and livestock used and now use in their 
daily lives. I myself was present in Shiprock, the largest 
community on the Navajo Nation in the late 1970's when Federal 
officials decided to simply pile up all the radioactive mill 
tailings on land near the center of town, with no lining under 
the waste and a lot of rocks on top to limit erosion.
    In what other town would the Government allow this to occur 
and remain? Under today's environmental laws, it is practically 
impossible to construct a municipal solid waste landfill, one 
that takes ordinary household waste, without any liner to 
protect underground aquifers used for drinking water.
    In Tuba City, however, an open dump and mill tailings piled 
up without a liner, like those in Shiprock, poses an immediate 
threat to the main aquifer in the western Navajo area. The 
Government has devoted the money needed to remove similar 
tailings from a rural area near Moab. Are those people or their 
water resources more valuable than Navajos?
    I regret to say that the Federal EPA, BIA, DOE and NRC 
would be doing virtually noting to protect the Navajo people 
and the Navajo environment at Tuba City, Church Rock and other 
locations within Navajo Country if the Navajo citizens and 
their government had not acted. This Federal neglect and 
environmental injustice must stop. The Navajo Nation has six 
specific recommendations that we firmly believe should be 
adopted and implemented by the Congress through legislation. 
These are set forth as attachments to my written statement and 
I will be pleased to discuss them with the committee.
    [The prepared statement of Mr. Arthur follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.021
    
    [GRAPHIC] [TIFF OMITTED] T5611.022
    
    [GRAPHIC] [TIFF OMITTED] T5611.023
    
    [GRAPHIC] [TIFF OMITTED] T5611.024
    
    Chairman Waxman. Thank you very much, Mr. Arthur. You may 
notice that some of our colleagues have left. There is a vote 
on the House floor on a procedural issue. I consider this 
hearing one that I want to stay for rather than go for that 
vote, so we will continue on with the hearing. They will be 
coming back.
    Mr. Etsitty.

                  STATEMENT OF STEPHEN ETSITTY

    Mr. Etsitty. Good morning, honorable members of this 
committee and the Honorable Chairman Waxman. Thank you for 
convening this important hearing.
    My name is Stephen Brian Etsitty. I am a member of the 
Navajo Nation and the Executive Director of the Navajo Nation 
Environmental Protection Agency. [Greeting in native tongue.] I 
am Water Flows Together Clan and I am born for the Salt Clan.
    The legacy of uranium mining and processing blankets the 
Navajo Nation from the Eastern Agency on up to the Northern 
Region near the Four Corners, across the beautiful Chuska 
mountains to my home area of Lukachukai, AZ, and from there 
westward toward the Grand Canyon. All these areas are a part of 
what we refer to as Dine Bikeyeah, or the Peoples' Land, and 
all have suffered and continue to suffer the health and 
environmental impacts from uranium mining and processing.
    This unfortunate legacy resulted from several past 
activities: uranium exploration, the mining of uranium, either 
underground or open pit mining, and the processing of the mined 
uranium done at facilities that produced yellowcake for the 
U.S. nuclear weapons arsenal. The legacy lingers, due to the 
current slow pace of cleanup and the poor quality of 
remediation of known contaminated sites.
    As stated, there are five former uranium processing sites 
spread across the Navajo Nation. All of these sites were 
decommissioned by the U.S. Government, meaning that radioactive 
mill tailings were capped with clay and rock and left in place 
at or adjacent to the former mill site. However, none of the 
sites were lined, no barriers were placed underneath the 
radioactive materials to keep the radioactive waste from 
leaching into the groundwater. And we believe that is exactly 
what is happening.
    We know there is radioactive and chemical groundwater 
contamination under all of these sites, and that in Tuba City, 
AZ and Shiprock, NM, contamination is moving toward municipal 
drinking water wells. We know that the Federal Government is 
working on that contamination and claims that things will be 
better in 20 or 30 years. We also know that it is extremely 
difficult, if not impossible, to construct a solid or hazardous 
waste landfill in your home State today in accordance with 
current environmental laws and regulations unless that landfill 
was built with a liner to protect your groundwater. Yet in my 
homeland, the Navajo Nation, we have four unlined radioactive 
waste dumps threatening our groundwater.
    Not one of the four mill sites has been properly remediated 
with contaminants removed from the living areas of the Navajo. 
As we gather mounting evidence that these unlined landfills 
seep uranium waste into our groundwater, we watch the Federal 
Government dig up and properly remediate a similar site located 
near Moab, UT, which is outside of the Navajo Nation borders. 
Why is this not happening on the Navajo Reservation? Are we 
seeing environmental justice in action once again?
    Regarding former uranium mining, there are over 600 former 
uranium mining sites, either on or within 1 mile of Navajo 
lands, and there are over 1,200 mining sites or site features, 
such as contaminated waste piles, associated with these sites. 
Many of these site features have been reclaimed, meaning that 
mine shafts have been sealed and other physical site dangers 
addressed. Only one of the abandoned mine sites has been 
thoroughly assessed in accordance with U.S. EPA Superfund 
program protocols, and that assessment has only been completed 
within the past year.
    Waste from the mines and mills found their way over the 
years throughout the Navajo Nation. Radioactive building 
materials have been found in Navajo homes. Grazing animals 
drink water from contaminated ponds. A public highway, New 
Mexico State Road 566, became contaminated with radioactive 
materials spilling from mining trucks. A Geiger counter held 
while driving that highway today will click and scream, 
revealing a radioactive public transportation corridor.
    But these statistics do not tell the full story. I would 
like to share with you two stories that illustrate the efforts 
being made by the Navajo people to address deadly contamination 
that has been largely ignored by the U.S. Government. The 
stories involve the communities of Tuba City, located near 
Flagstaff, AZ, and Church Rock, located near Gallup, NM. I will 
start with a demonstration involving a sample of radioactive, 
contaminated soils we have had shipped here from Tuba City/Rare 
Metals UMTRCA site. The sample was obtained by our consultant, 
Dr. Bill Walker. Navajo EPA was left with no choice but to 
initiate its own site investigation, depleting our limited 
funds, after U.S. EPA refused to move forward with its own 
assessment of the area.
    I have also brought here the report that was finalized by 
Dr. Walker, which has allowed us to move forward to begin a 
more thorough environmental assessment in the Tuba City area. 
We will leave copies here for the committee, not only for its 
scientific content, but as a symbol of the fact that any 
progress occurring in both the Tuba City and Church Rock areas 
results from Navajo initiative, not Federal initiative. So the 
sample that we have here today is obtained from the Tuba City 
area, a site that we call Highway 160, and I have in front of 
me an instrument that our Superfund program, the Navajo 
Superfund program, uses to detect radioactive contaminants.
    It is important to understand that background is usually 
established as we search for samples or radioactive areas on 
the Navajo Nation. In this particular site near Tuba City, 
background was established at about one or two micro-Rankins 
per hour, and the sample, as recorded in the report, was 
determined to be about 30 micro-Rankins per hour. And this is 
an isolated sample that we have brought here today. You can 
hear the beeping.
    This particular device detects gamma radiation, and gamma 
radiation is all throughout the cosmos and the atmosphere, so 
it will beep from time to time. The sample that I have before 
me is covered, and as we get closer to it, you will hear the 
detection device starting to recognize the gamma radiation from 
the source. I will remove the cover and just let the device 
tell you what is going on.
    [Detection device beeping rapidly.]
    Mr. Etsitty. This is a very basic instrument that we have 
within our capability as a program. Oftentimes, when we do 
detect areas on the Nation that are high, in this case it would 
be 30 times or higher above background, it is definitely cause 
for concern and more investigations. That is one of the reasons 
we have gone forth and taken the initiative to provide this 
report.
    Of course, the sounds that you heard are just a small 
demonstration that shows that Navajo families are living within 
oftentimes a few hundred yards of materials that we are told we 
shouldn't be exposed to for more than an hour. But we have 
Navajo residents that have been living in these areas for 
sometimes more than 40 or 50 years.
    So the story about Tuba City is that it took Navajo funds, 
Navajo EPA employees and Navajo local residents to get U.S. 
EPA's attention and get them to admit that something needs to 
be done to protect Navajo citizens. The same thing happened in 
Church Rock. Navajo residents were able to wrestle a small 
grant from a non-profit organization to initiate a local 
monitoring project. Think about that.
    Lacking a properly funded U.S. EPA investigation, local 
Navajos took it upon themselves to carry radiation detection 
devices across our lands, these former uranium mining sites. As 
a result of their work and the encouragement from our agency, 
U.S. EPA finally recognized the need for emergency action and 
recently completed the excavation of approximately 5,000 to 
6,000 cubic yards of radium contaminated soils located next to 
and in some cases inside Navajo residences. That is the good 
news.
    The bad news is that about 300,000 cubic yards of the toxic 
waste remains still on the mine site. We hope to have that 
addressed very soon.
    So our problems are just now beginning to be addressed. I 
am sure that you understand, and as you will hear from the 
other witnesses, that for many of these families that live next 
to these toxic substances, it is very difficult to see a great 
deal of progress. But I am here today, not only as a spokesman 
for the Navajo Government, but as an individual Navajo who has 
walked across these sites, come to know the families and the 
people here, our witnesses, feel their anger and has heard 
their stories of unexplained cancers, kidney failures, birth 
defects and sores that don't heal.
    I am here before you to request your help in putting this 
pitiful response to an obvious disaster to an end and to accept 
that the Navajo Nation has proven that it is capable of being a 
true and equal partner with the United States in restoring our 
lands and our people to hozho, or harmony. But we can't do it 
with our current woefully under-funded budgets and diminishing 
resources. We can't continue to have to beg the U.S. Government 
for help, only to be rejected and have to prove time and time 
again that we know our lands better than the Federal 
authorities.
    We opened the borders of our land for uranium mining in an 
act of patriotism during the cold war era. Now we are left with 
the legacy of uranium contamination without substantial Federal 
monetary help. Navajo patriotism and Navajo per capita 
contributions to American armed forces are now and always have 
been unsurpassed. It is time for America to support the people 
who support America.
    We are a people who have a treaty with the Government of 
the United States, the Treaty of 1868. It is sacred to our 
people and we have always honored our obligations under that 
treaty. The presence of unpermitted and unlawful hazardous 
waste dumps on our lands amounts to a taking of our lands in 
violation of this treaty. We now look to the Government we have 
faithfully served to honor its obligations.
    Thank you, Mr. Chairman, for your leadership and attention. 
I would also like to thank my staff of the Navajo EPA for their 
help.
    [The prepared statement of Mr. Etsitty follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.025
    
    [GRAPHIC] [TIFF OMITTED] T5611.026
    
    [GRAPHIC] [TIFF OMITTED] T5611.027
    
    [GRAPHIC] [TIFF OMITTED] T5611.028
    
    [GRAPHIC] [TIFF OMITTED] T5611.029
    
    Chairman Waxman. Thank you very much, Mr. Etsitty.
    Dr. Brugge.

                    STATEMENT OF DOUG BRUGGE

    Dr. Brugge. Good morning, Chairman Waxman and members of 
the committee. My name is Doug Brugge. Just to give you some of 
my credentials, because I will be speaking as a technical 
witness: I have a Ph.D. in cellular and developmental biology 
from Harvard University and an M.S. in industrial hygiene from 
the Harvard School of Public Health. I am currently an 
associate professor in the Department of Public Health and 
Family Medicine at Tufts University School of Medicine. I also 
direct the Tufts Community Research Center.
    I have over 20 academic publications about uranium and the 
Navajo people, including a 2006 book that I co-edited, 
entitled, ``The Navajo People and Uranium Mining.'' I have 
focused on the Navajo situation with uranium because it amounts 
to such a large crisis for the Navajo Nation.
    Appearing before this congressional hearing today reminds 
me of the long history of hearings beginning in the 1960's and 
continuing through the 1970's, 1980's and 1990's that sought 
and eventually achieved a semblance of compensation for Navajo 
and other uranium miners. I am deeply saddened by the fact that 
so little has been accomplished over those decades to eliminate 
the health hazards faced by the enormous quantities of uranium 
waste in the Navajo Nation. There has been too little research 
on the health impacts of uranium mining in Navajo communities. 
One study underway, for example, will mostly assess kidney 
disease, but not birth defects, cancer or neurological 
problems.
    Today, as we begin the public process of addressing 
community exposures, I can only hope that the path for the 
Navajo communities is shorter than the one traveled by the 
uranium miners and their families.
    I will now spend a few minutes describing the hazards faced 
by the Navajo people today. Clearly, uranium ore is a toxic 
brew of numerous, nasty, hazardous materials. Uranium itself is 
highly toxic and gives rise, as has been mentioned earlier, to 
a series of other radioactive decay elements that are found in 
raw, natural ore. Most significant among these are radium and 
thorium, both of which are highly radioactive. When radium 
decays, it produces radon gas, a highly potent toxicant. 
Because it is a gas and becomes airborne, when radon decays it 
transforms into a series of highly radioactive radon daughters 
that can lodge in the lungs.
    The primary heavy metal toxicants in uranium ore, that is 
the chemical toxicants, include uranium itself and arsenic, as 
well as vanadium and manganese, among others. During the first 
phase of processing uranium, most of the uranium is removed, 
leaving behind mill tailings which retain most of the other 
toxic contaminants from the ore. This is what you have heard 
the Honorable Mr. Etsitty speaking about.
    The milling of uranium is an industrial process that 
involves crushing and grinding of the rocks and the addition of 
acids and organic solvents to facilitate concentration and 
removal of uranium. Hence, uranium mill tailings and mill 
tailing effluent are not only high radioactive, but also 
acutely hazardous.
    The health effects of uranium and its associated 
radioactive decay products and the heavy metals in uranium ore 
have been studied extensively. Many of them are proven or near-
proven to have causal links with health effects. I will list 
only a few of these. One is radon, which causes lung cancer, 
and in fact is the primary source of lung cancer among Navajo 
uranium miners. Two is uranium, which is a heavy metal that 
causes damage to the kidneys, as you have heard previously; 
there is also strong evidence that it causes birth defects and 
may cause changes to the bones as well. Three is radium, which 
causes bone cancer, cancer of the nasal sinuses and mastoid air 
cells and leukemia, among other things. And four is arsenic, 
which causes lung and skin cancer, as well as neurotoxicity, 
hyper-pigmentation and hyperkeratosis of the skin.
    There may be many other negative health effects from 
exposure to uranium and its byproducts. In short, there is a 
clear causal link between uranium ore exposure and human 
health. The Navajo people, continually exposed to uranium and 
its byproducts, even today, face grave threats to their health.
    I would like to conclude with some observations about the 
Navajo community of Church Rock, both historical and present 
day. Church Rock, as you have heard, is located outside of 
Gallup, NM, in the Navajo Nation. The Church Rock tailings 
spill, also as mentioned previously, is the largest release of 
radioactive waste in the history of the United States. This 
release was substantially larger than the release at Three Mile 
Island, which happened about 4 months before the release at 
Church Rock. It is interesting to me that this incident has 
been virtually ignored in the press and even in the scientific 
literature.
    For the people in Church Rock and other Navajo communities 
contaminated for decades with uranium ore tailings, there are 
no good options. Too much harm has already been done. But there 
are ways we can gradually make things better, so that maybe the 
children and grandchildren of the Navajo uranium miners are not 
still grappling with this toxic legacy. A good start would be 
to provide sufficient resources to secure or remove 
contamination at these hazardous waste sites, and to do so in a 
manner that prevents additional exposure to nearby residents. 
Congress should fund the Navajo Nation and Federal health 
agencies to provide resources for health studies as well, among 
the tens of thousands of Navajo community members who live next 
to abandoned mines and mill sites.
    I leave you to ponder a simple observation about this 
egregious situation. As terrible as the health effects that we 
know arise from toxins and uranium tailings, there are almost 
certainly additional ways that the health of the Navajo people 
living near uranium mill and waste sites has been affected. If 
we are to understand the full extent of this injustice, we will 
also need additional health studies.
    Thank you.
    [The prepared statement of Dr. Brugge follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.030
    
    [GRAPHIC] [TIFF OMITTED] T5611.031
    
    [GRAPHIC] [TIFF OMITTED] T5611.032
    
    Chairman Waxman. Thank you very much, Dr. Brugge.
    Mr. King.

                    STATEMENT OF LARRY KING

    Mr. King. Good morning, honorable members of this 
committee, and honorable Chairman Waxman. [Greeting in native 
tongue.]
    My name is Larry J. King. I am 50 years old. In the Navajo 
clan system, Edith Hood, who is sitting here next to me, is my 
sister. I was born and have lived all my life in a traditional 
Navajo community called Church Rock Chapter, which is located a 
few miles northeast of Gallup, NM. In the Church Rock area, we 
raise sheep and cattle in the traditional Navajo way. I still 
raise cattle on the land my father left to me and my two 
sisters.
    Between 1975 and 1983, I worked for United Nuclear Corp. 
[UNC], as an underground mine surveyor and mill worker. I am 
currently employed as a water system technician. I have been 
active for my community on uranium issues for the last 10 
years.
    Church Rock and its neighboring communities of Pinedale, 
Coyote Canyon and Iyanbito have suffered widespread impacts of 
past uranium mining. As you have already heard, the biggest 
spill of radioactive waste in the United States occurred in our 
community July 16, 1979, only about 2 miles from where I live. 
The contaminated fluids that escaped from the UNC uranium mine 
tailings pond ran right through our property, in the Puerco 
River, where we watered our livestock. I remember the foul odor 
and the yellowish color of the fluids. I remember that an 
elderly woman was burned on her feet from the acid and the 
fluid when she waded in the stream while herding her sheep.
    Many years later, when water lines were being installed in 
the bed of the Puerco River, I noticed the same odor and the 
same color in a layer about eight feet below the stream bed. To 
this day, I don't believe the contaminations from the spills 
have gone away. Our community also continues to suffer from the 
poisons left from the mining operations that began in the early 
1950's. There are about 20 abandoned uranium facilities in the 
Church Rock area. More than half of those were developed by 
companies that sold uranium ore to the U.S. Atomic Energy 
Commission for use in the Nation's nuclear weapons program, and 
have not been cleaned up.
    I think many of us knew in our hearts that we lived in a 
contaminated area, but it wasn't until 2003, when the Chapter 
started the Church Rock Uranium Monitoring Project [CRUMP], 
that we found out how bad the problem was, and still is, with 
the assistance of many outside organizations and the agencies 
which sample our air, water and land. I submitted a copy of a 
recent Power Point presentation that summarized many of the 
CRUMP findings. You should have that in your possession 
already.
    Let me tell you about just two of those in the time I have 
today. The first is that the Old Churchrock Mine, which is 
located within a quarter mile of my home and the homes of my 
two sisters, remains highly contaminated and has never been 
properly cleaned up. In the CRUMP survey, which I was trained 
for and participated in, we found high levels of gamma 
radiation, up to 16 times what is considered normal for the 
area outside of the mine site, even on my grazing land, which 
is immediately adjacent to the mine.
    The Old Churchrock Mine was once operated by the Phillips 
Petroleum Co. and UNC. It is now occupied by Hydro Resources, 
Inc. [HRI], which has received a Nuclear Regulatory Commission 
license to build a uranium in situ leach mine there. Two years 
ago, the NRC ruled that the radiation from the site doesn't 
have to be included in the public dose calculations, that the 
wastes there are now part of ``background'' as though the Great 
Spirit had placed them there from the beginning of time. NRC 
said it doesn't regulate mine waste. I guess its mandate to 
protect the public health and safety just doesn't apply to us 
Navajos.
    The second major finding of our CRUMP study was that the 
soils around some of the homes of my relatives in the Red Water 
Pond Road area, where Edith Hood lives, were also contaminated 
with high gamma radiation levels and with uranium in amounts of 
up to 30 times what is considered natural. Two abandoned mines 
lie on both sides of this community. One, the Northeast 
Churchrock Mine, was operated by UNC and is now owned by 
General Electric Co. A Navajo residence is about 500 feet away.
    As Edith Hood will tell you in her testimony, there is much 
sickness among the residents of her community: cancers, kidney 
disease, and miscarriages. We believe that all these illnesses 
are related to the past mining and milling operation, but it is 
difficult to prove because no comprehensive health study has 
ever been done in our community. My own family suffered during 
the uranium era. One of my uncles and his in-laws were all 
killed when their car collided with a uranium ore truck on New 
Mexico State Road 566, about a mile south of the UNC mill in 
1975. Two years later, my brother was killed in a head-on 
collision with a uranium ore truck at the gate to the old 
Churchrock Mine.
    As a former underground mine surveyor for UNC, I often 
worry about my own health. I am not, and never have been, a 
smoker, but in the past year, I have developed breathing 
difficulties. My doctors can't find anything wrong with me--
yet. I don't have enough time to tell you how bad the 
conditions were for the workers at UNC and how the company was 
not concerned about the safety of its employees. I will tell 
you that as a kid, I played on the big piles of ore and mine 
waste across the road from our home, unaware of the dangers.
    On behalf of my community and my family, I beg that you do 
something to end this horrible experiment that the nuclear 
industry and the U.S. Government have been carrying out on the 
health of the Navajo people. I beg you to support our Navajo 
law and order the NRC to deny permits to companies that want to 
mine uranium in the Navajo communities again. Many of our 
elderly do not speak English, but we all know that what is 
happening is wrong. Please help us see that justice is done for 
our people and our communities.
    Thank you.
    [The prepared statement of Mr. King follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.033
    
    [GRAPHIC] [TIFF OMITTED] T5611.034
    
    [GRAPHIC] [TIFF OMITTED] T5611.035
    
    [GRAPHIC] [TIFF OMITTED] T5611.036
    
    [GRAPHIC] [TIFF OMITTED] T5611.037
    
    [GRAPHIC] [TIFF OMITTED] T5611.038
    
    [GRAPHIC] [TIFF OMITTED] T5611.039
    
    [GRAPHIC] [TIFF OMITTED] T5611.040
    
    [GRAPHIC] [TIFF OMITTED] T5611.041
    
    [GRAPHIC] [TIFF OMITTED] T5611.042
    
    [GRAPHIC] [TIFF OMITTED] T5611.043
    
    [GRAPHIC] [TIFF OMITTED] T5611.044
    
    [GRAPHIC] [TIFF OMITTED] T5611.045
    
    [GRAPHIC] [TIFF OMITTED] T5611.046
    
    [GRAPHIC] [TIFF OMITTED] T5611.047
    
    [GRAPHIC] [TIFF OMITTED] T5611.048
    
    [GRAPHIC] [TIFF OMITTED] T5611.049
    
    [GRAPHIC] [TIFF OMITTED] T5611.050
    
    [GRAPHIC] [TIFF OMITTED] T5611.051
    
    [GRAPHIC] [TIFF OMITTED] T5611.052
    
    [GRAPHIC] [TIFF OMITTED] T5611.053
    
    [GRAPHIC] [TIFF OMITTED] T5611.054
    
    [GRAPHIC] [TIFF OMITTED] T5611.055
    
    [GRAPHIC] [TIFF OMITTED] T5611.056
    
    [GRAPHIC] [TIFF OMITTED] T5611.057
    
    [GRAPHIC] [TIFF OMITTED] T5611.058
    
    [GRAPHIC] [TIFF OMITTED] T5611.059
    
    [GRAPHIC] [TIFF OMITTED] T5611.060
    
    [GRAPHIC] [TIFF OMITTED] T5611.061
    
    [GRAPHIC] [TIFF OMITTED] T5611.062
    
    [GRAPHIC] [TIFF OMITTED] T5611.063
    
    Chairman Waxman. Thank you very much.
    Ms. Hood.

                    STATEMENT OF EDITH HOOD

    Ms. Hood. Good morning, Mr. Chairman and everyone who is 
here.
    There is no place like Dinetah, a place of the Naabanis. 
But if you are not from the Rez, you don't know the white dawn 
of morning, you don't know the clear blue sky, an autumn 
twilight and the twinkling stars of the night. Where I am from, 
there are pinon-covered mesas, our beautiful and sacred 
mountains, sandy deserts. Where I am from, in a place called 
Red Water Pond, there is also yellowcake, uranium waste and 
sickness. I live about 12 miles north of Church Rock on the 
Navajo Reservation, between two abandoned mine sites.
    I grew up with cultural teachings of a loving grandfather, 
a medicine man, a traditional leader. He taught us to respect 
Mother Earth, for she gives all the necessities of life. There 
is a Navajo concept called hozho. Hozho is how we live our 
lives. It means balance, beauty and harmony between us, the 
Five-Finger people, and nature. When this balance is disturbed, 
our way of life, our health and our well-being all suffer. The 
uranium contamination and mining wastes at my home continue to 
disrupt hozho.
    I think it was in the 1960's, when I was only a teenager 
that strangers arrived. I remember Grandma running to stop them 
from making roads into the wooded areas. The stakes she drove 
into the ground did not keep them out. No one ever told her 
what was happening. The exploratory drilling people had 
arrived. There was no respect for people living there, and 
certainly no respect for Mother Earth.
    Today, as I pray in the early morning dawn, there is a man-
made mesa of radioactive and hazardous waste about a quarter of 
a mile northeast of my residence. In the other direction, to 
the south, about 1,000 feet away, is another mound of uranium 
mining waste. At least the one to the northeast has some dirt 
on top. The one to the south has been left uncovered since it 
was created in 1968, and since the company stopped mining 25 
years ago. From my front yard, I can see these waste piles. 
This waste seems to be piled everywhere. There are mountains of 
it, 50, 60 feet high. These are the tailings, or the muck of 
pulverized uranium ore. I don't know what else is in them.
    They told us it is low-grade, that most of the uranium has 
been extracted from it. This stuff is spread by wind and water. 
We breathe it and live with it every day. Our community 
continues to live under these conditions. The mining companies 
have gone, but there is still equipment and tools, concrete 
blocks, pieces of protective clothing, brattice cloths, bolts, 
mesh wire and the vet bags sticking out of the earth, scattered 
about.
    My family and relatives live among these sites. Children 
still play in the fields and ditches among the rocky mesas and 
the arroyo that once carried contaminated mine water. The sheep 
still get through the fence that is supposed to barricade these 
uranium mine tailings, and yet we still eat the sheep for 
mutton.
    These places are still contaminated. I know because I 
learned how to survey the ground for radiation when our 
community got involved in a monitoring program in my area 4 
years ago. I know because the Government people told us it was. 
I watched as the EPA people dug up the contaminated soils from 
around the home of my sister and other relatives this May.
    I worked at the Quivira, also known as the Kerr McGee Mine, 
2,000 feet underground with a geology unit. I was diagnosed 
with lymphoma in the summer of 2006. My father has pulmonary 
fibrosis. My mother was diagnosed with stomach cancer. My 
grandmother and grandfather died with lung cancer. Many of my 
family members and neighbors are sick, but we don't know from 
what.
    Today there is talk of opening new mines. How can they open 
new mines when we haven't even addressed the impacts and 
environmental damage of the old ones? Mining has already 
contaminated the water, the plants and the air. People are sick 
and dying all around us.
    Waste is seeping into the ground and may have already 
reached the underground water supply. I think about the shaft 
and vent holes that brought out exhaust from underground, where 
they cemented and sealed. If so, was the work done properly? If 
not, could there be poisonous gases escaping from these vents? 
Is the shaft acting as a passageway to the groundwater?
    We need your help to clean up the mess that the mining 
companies and the U.S. Government have burdened us with. We 
need help to stop mining companies from coming in and making 
new ones. We need to restore hozho, so that we may live in 
balance and harmony with each other and nature, as Navajo 
people and as Dine.
    [The prepared statement of Ms. Hood follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.064
    
    [GRAPHIC] [TIFF OMITTED] T5611.065
    
    [GRAPHIC] [TIFF OMITTED] T5611.066
    
    Chairman Waxman. Thank you very much.
    Mr. Harrison.

                   STATEMENT OF PHIL HARRISON

    Mr. Harrison. Good morning, honorable members of this 
committee and Honorable Chairman Waxman.
    My name is Phil Harrison, and I reside in Red Valley, AZ. I 
am 57 years old, and an enrolled member of the Navajo Nation, a 
veteran of the U.S. Armed Forces and an elected delegate to the 
21st Navajo Nation Council.
    I am not here today as an official representative of the 
Navajo Government. I am here as a private citizen, a proud 
citizen of the Navajo Nation and a proud citizen of the State 
of Arizona, and a proud citizen of the United States of 
America. I am here to tell a story. In one sense, it is my 
story. But in a broader sense, it is a story of my people.
    I am also here to look forward, not backward, and to tell 
you what I think needs to be done to assist my people and my 
land in recovering from the devastation caused by short-sighted 
and in some cases mean-spirited people who put their own 
private interests first and ignore the fact that their choices 
and decisions would result in an inhumane experiment being 
conducted on indigenous people.
    I grew up in the uranium mining camps. I drank uranium-
contaminated water from those mines. We washed our clothes in 
uranium-contaminated water. I watched children going into the 
mines and playing on the waste piles. We made our coffee with 
the uranium-contaminated water. In all likelihood, I have 
continued to drink uranium-contaminated water through the 
years.
    For example, there are two wells in Cove, AZ, near where I 
live. Both tested positive for uranium and other 
radionucleides. One of the wells was closed by Indian Health 
Service, but with the other, all they did was blend the water 
with water from another source and tell us the problem was 
resolved.
    My father started working in the uranium mines in about 
1950. I worked in the uranium mine in the summer of 1969. I saw 
cisterns in the mines and watched miners drink three to four 
cups of water a day from the mine.
    My little brother, Herman James Harrison, died of a stomach 
ailment at the age of 6 months. He drank the contaminated 
water. Please realize when I tell you about uranium-
contaminated water, we are not just talking about a situation 
that occurred 30, 40 or 50 years ago. We are talking about a 
situation that is occurring today in places like Tuba City, AZ 
and other places throughout Navajo Indian Country.
    The experiment on our health and welfare being conducted 
with the complicity of the U.S. Government continues. We are an 
indigenous people. We raise sheep and cattle. We drink water 
where we find it, and the sad story is that there is, in all 
likelihood, plenty of uranium-contaminated water to be found on 
our land. I know many people suffering from kidney problems, 
and I wonder if they are drinking contaminated water.
    The Navajo people revere Mother Earth as sacred within a 
highly spiritual context. So when uranium mining occurs, it is 
considered ripping out the guts of Mother Earth. For the Navajo 
people, sacred sites are the foundation of all our beliefs and 
practices, communing with higher spiritual powers, because they 
represent the presence of the sacredness in our lives. It 
properly informs us that we are not greater than nature and 
that we have a responsibility to the rest of the natural world 
that transcends beyond mere human desires. The more we destroy 
our Earth, we shall have to learn a bitter lesson in the 
future.
    My father died of lung cancer in 1971 at the age of 46. My 
cousin's father, also a mine worker, died of lung cancer at the 
age of 42. All my brothers and sisters have thyroid problems 
and disorders. They did not work in the mines, but they grew up 
in places around contamination. I had scarring on my left lung 
in 1999 and my kidneys failed. I was on dialysis until 2001, 
and I received a kidney transplant from my sister. My story is 
not unusual. I only worked in the mines for a few months, but I 
have lived in the uranium mine waste land all my life. This is 
the story of my people, a people whose patriotism and loyalty 
to the United States of America is unparalleled. Code Talkers 
are finally being recognized in the movies and the newspapers 
for the heroes that they are. Yet I have known some of these 
very same Code Talkers who have suffered and died from diseases 
caused by continued experiments on my people. When will this 
experiment end?
    I don't know what will happen next to me. I suffer from a 
skin disorder that I have been told is connected with exposure 
to uranium. I don't know what if anything will happen as a 
result of the scarring on my lung. I consider it to be very 
lucky to be here today, and in one sense, I consider myself to 
be in great shape for the shape I am in.
    Having said all this, I believe that I lead my life looking 
forward and not backward. You have the power to change things. 
You have the power to end this tragic experiment. Here are some 
of the steps that you can take, starting today, to bring life 
in what we call Dine Bikeyeah back into harmony. And harmony, 
or hozho, is perhaps the most central concept in our view of 
the world.
    You can support the proposed amendments to the Radiation 
Exposure Compensation Act of 2000 as set forth in the exhibit 
to be submitted with my testimony. You can remove the illogical 
barriers to provisions of compensation to former Navajo uranium 
workers and their families. For 65 years, since 1942, Navajo 
men, women and children have been subject to the catastrophic 
health effects of exposure to uranium mining and milling and 
the effects of the downwind exposure to nuclear test sites. 
This has benefited the United States, but has been a tragedy to 
the Navajo Spirit. It is too late to help those like my father 
who have died from this devious exposure. Apologies are 
appreciated; however an apology is hollow without just 
compensation. Please change the laws to allow justice for the 
Navajo people. You can also support the measures set forth in 
the testimony of our Resources Committee chairperson, George 
Arthur.
    It has been about 25 years since the last mine closed. My 
people should not have to wait another 25 years for the Federal 
Government to accept the responsibility that it should have 
accepted many years ago.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Harrison follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.067
    
    [GRAPHIC] [TIFF OMITTED] T5611.068
    
    [GRAPHIC] [TIFF OMITTED] T5611.069
    
    [GRAPHIC] [TIFF OMITTED] T5611.070
    
    Chairman Waxman. Thank you very much, Mr. Harrison.
    Mr. Manygoats.

                   STATEMENT OF RAY MANYGOATS

    Mr. Manygoats. Good morning, Mr. Chairman. My name is Ray 
Manygoats, and I am 53 years old. I live near Tuba City, AZ, on 
the land where my family has lived for many generations.
    A uranium mine was built near our home and the home of 
other family and community members when I was a young child. My 
father and other family members were recruited to work in the 
mill. They had no training or background in the processing of 
uranium.
    The Rare Metals Corp. of America promised to train my 
father and other family members to keep them safe. But these 
promises were lies. The company failed to protect my father and 
the other workers. I am told the Department of Energy and the 
U.S. Environmental Protection Agency and the Bureau of Indian 
Affairs all had promised to guard our health to make sure that 
we would not suffer from the consequences of uranium mining and 
processing. But our land today is poisoned. Today, I am a man 
who has lost his health and family, and that is just a way of 
life because of uranium. I am here today to ask you to stop the 
suffering and the needless death of my people.
    On our homeland near what is now called Tuba City, AZ, we 
cared for our grandparents, herded sheep, planted vegetables 
and raised our children. As a young boy, I remember seeing the 
Rare Metals Mill, which had been built across the highway from 
our home. My father was recruited to work at the mill. The 
company provided him with a uniform that he was asked to wash 
at home. When he would come home each day, he was covered with 
yellow, thick dust. Each day, we would wash his uniform. To 
wash the uniform, we would gather water near the uranium mill. 
We scrubbed, but the uniform was always yellow with dust.
    The Rare Metals Mill had no fence around it. Our horses, 
sheep and livestock would graze on the grass growing in and 
around the mill. We planted and ate food grown in the area. As 
we had done for generations, we made use of what we found 
around us. We cooked on grills my father brought back from the 
mill. These grills had been used to sift the yellowcake 
uranium. My father also brought home large metal drums from the 
mill. We played in the drums and used them to store our food 
and belongings.
    My brother Tommy and I would often bring lunch to my father 
at the mill. Yellow stuff was always everywhere. I saw liquids 
bubbling and tried to stay away from them. But 1 day my sister 
Daisy walked through one of the open ponds near the mill and 
burned her feet.
    We would play in the yellowcake sand near the mill, jumping 
and rolling around in it. We also found many small metal balls 
at the mill. The balls were used to crush and process the 
uranium. We played marbles with them and had contests to see 
how far we could throw them.
    My father began to have trouble breathing. His breathing 
troubles never went away, even after the mill was closed. I 
have always had problems with my ears and eyes. I have had 
surgery three times to remove growths from my eyes and I have 
sores on my ears. Many of my sisters and brothers also have 
problems with their eyes. I lost my mother to lung cancer and 
stomach cancer that grew inside her lungs and throughout her 
body. Another family member, Lucille, was never able to grow 
hair and has worn a wig all her life.
    Today, I still live in the same area, the land of my 
family. The mill is no longer in operation but the waste from 
the mill is everywhere. Today I walk the land and see streaks 
of yellowcake uranium in our washes and our topsoil. It is 
always windy, and the wind blows the earth into the air. I see 
the uranium marbles of my youth in areas where trucks dumped 
materials and waste from the mill back across the highway into 
our land. I see in the ground old rusting chemical barrels and 
cables that were once used to operate the mill.
    We now know that we are sick because of the uranium. Now 
people come with machines called Geiger counters and they click 
and make noise. The noise tells me what I already know: that my 
family's land is poisoned. But no one helps us to remove the 
poison. I am here on behalf of my community to ask you for your 
help; to ask that we move past promises to actions, actions 
that may save our children from the sickness and the poison 
that we are now living with.
    Thank you.
    [The prepared statement of Mr. Manygoats follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.071
    
    [GRAPHIC] [TIFF OMITTED] T5611.072
    
    [GRAPHIC] [TIFF OMITTED] T5611.073
    
    Chairman Waxman. Thank you very much, Mr. Manygoats.
    Let me thank all of you for your presentation to us. You 
have given us very powerful testimony. And all of us here feel 
empathy with you and your family and people we haven't even met 
who we know have suffered. I have to say that I feel enormous 
shame that the Federal Government has treated the Navajo Nation 
as poorly as it has.
    I want to ask some questions. And each Member will have a 
chance to ask questions as well.
    Mr. King, Church Rock, NM is a few miles outside the Navajo 
Reservation, and there is an abandoned uranium mine there now. 
It is called the Northeast Churchrock Mine, and it was the 
largest underground uranium mine in the country. You worked 
there for 8 years, is that right?
    Mr. King. Yes, sir, 7 years underground and 1 year at the 
mill site.
    Chairman Waxman. And Ms. Hood, you lived your whole life in 
the immediate area near that mine, is that correct?
    Ms. Hood. Yes, I have.
    Chairman Waxman. Mr. King, the mine was operated by the 
United Nuclear Corp. [UNC]. Did UNC clean up the mine site when 
it closed it in the 1980's?
    Mr. King. No, sir. We have been conducting tours and we 
have also been in contact with the former worker. He was one of 
the last few to go. He tells about a lot of contaminated 
materials that he had to bury, per instructions from the 
supervisor.
    Chairman Waxman. But the company that ran the business, 
they closed it and they never cleaned it up?
    Mr. King. They never cleaned it up. Everything is still 
there.
    Chairman Waxman. Everything is still there, including, Ms. 
Hood, mounds of ore waste from the mine, is that right?
    Ms. Hood. Yes, that is right.
    Chairman Waxman. How high are some of these mounds?
    Ms. Hood. Fifty, 60 feet high.
    Chairman Waxman. Is it hard, solid, or is it dusty?
    Ms. Hood. In part, it is hard. Then in the soft parts, 
well, when the wind blows, you can see it in the air.
    Chairman Waxman. When the wind blows, where does it blow 
the dust from that mound of ore?
    Ms. Hood. To the homes that are nearby.
    Chairman Waxman. And how far away is this mound from your 
home?
    Ms. Hood. About 1,000 feet.
    Chairman Waxman. Can people walk up to that pile?
    Ms. Hood. Yes, they can.
    Chairman Waxman. And do children sometimes play in that 
pile?
    Ms. Hood. Yes, they do.
    Chairman Waxman. Now that people know better, I assume they 
try to keep the kids away?
    Ms. Hood. We try to do that, but children still get up 
there.
    Chairman Waxman. People have sheep and when the rains come, 
do they cause some of the erosion of the mounds to go into the 
water where the sheep drink?
    Ms. Hood. Yes, it does. The water comes back down into the 
ditches or the ground and into the plants where the sheep 
graze.
    Chairman Waxman. We heard earlier that when the U.S. 
Environmental Protection Agency tested the mine area, the 
radium levels were 270 times the EPA standard. That is a very 
exceptionally high cancer risk. When the wind blows, people 
breathe this in. When the water runs in there, the water runs 
over the piles and it goes into the ditches, into the river; 
livestock drink from the water. Have you seen any impact on any 
of the livestock, the lambs or any of the other animals?
    Ms. Hood. Yes, we have. We have lambs that did not have 
wool, hair, but they died within days. And we have butchered 
sheep and in one case the fat was yellow, which is not normal.
    Chairman Waxman. So people get exposed in many different 
ways. You described some of the health effects in your family. 
Could you just go through those again?
    Ms. Hood. OK.
    Chairman Waxman. You yourself?
    Ms. Hood. I myself have had lymphoma, went through 
chemotherapy. And my father has pulmonary fibrosis. My mother 
was diagnosed with stomach cancer and my grandparents both had 
lung cancer.
    Chairman Waxman. And there are eight other families that 
live near you, is that right?
    Ms. Hood. Yes.
    Chairman Waxman. I am very sorry to hear what you are 
telling us. The U.S. Environmental Protection Agency obviously 
needs to clean up this area. It is absolutely unacceptable that 
you and other American citizens, have continued to be exposed 
to the mine waste, radioactive dust and contaminated water. 
This is really just unacceptable. That is why I hope this 
hearing will lead to some clear result, a final cleaning up of 
this area. Thank you very much. I thank all of you.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, and thank you for both 
shedding light on it, and I look forward to the second panel to 
find out whether oversight is sufficient or whether reform will 
be necessary. Certainly uranium is not the only contaminant 
that we deal with in America. I grew up in Ohio, where quite 
frankly, the side effects of coal, which today still gives us 
51 percent of our electricity, has left us with polluted water, 
particularly water generating high lead contents. As Arizonans, 
I know you deal with arsenic as a naturally occurring but 
clearly carcinogenic poison.
    We have an obligation to make sure that either the 
companies that mined those facilities or the U.S. Government, 
if necessary, clarify what the responsibilities are and get it 
fixed and get it fixed, in a timely fashion. And on a 
bipartisan basis, you have an assurance from this committee 
that, not just when we hear from the EPA in the second panel, 
but on an ongoing basis, this is something that once started, I 
believe that we will continue to work on until we get you a 
resolution.
    I do have one question for Mr. Harrison. Because in my 
briefing book, it said that cancer rates now have dropped below 
the national average. What would you say, or from your 
experiences, and maybe this isn't for you, but how much of that 
is a result of the stopping of mining, how much is the result 
of cleaner water and how much is some other basis? Because I 
know the EPA is going to come in and say, we are doing better, 
things have been done. I would like to have a feel for whether 
that anecdotal information is something you think is real or 
whether there is more to be done besides what you have covered 
here today.
    Mr. Harrison. Thank you. I am not a technical person, but I 
live in the midst of all my Navajo people, friends and 
relatives. I hear stories almost every day about who gets 
diagnosed with kidney failure, who has cancer. I know these are 
coming from communities that dealt with uranium mining. I have 
not seen anyone from the eastern side coming in saying that, I 
have lung disease or I have cancer. It mainly has been from the 
community people who have dealt with the uranium.
    Mr. Issa. OK.
    Doctor, you are one of the technical, although not quite 
the perfect one, I mean, the information we received seemed to 
be more than anecdotal. To what do you attribute the drop to 
lower than the national average in cancer overall for the 
Navajo?
    Dr. Brugge. I am not exactly sure which statistics you are 
referring to. One of the things that keeps lung cancer, in 
particular, levels low in the Navajo people is that smoking is 
very low. And one of the truly striking findings from research 
to date about uranium mining is that is a conclusion which is 
in the scientific literature and I agree with, and I think most 
of us who have worked on the issue would agree with, that for 
the Navajo people, uranium mining is the largest single cause 
of lung cancer. That is an unusual finding, because in most 
other populations, smoking would be either a major contributing 
factor or the major factor.
    Mr. Issa. So in your case, you would suggest we look at the 
higher incidence of kidney as perhaps not offset by lifestyle, 
where the lower incidence of lung cancer is partially offset by 
lifestyle?
    Dr. Brugge. There is no question in the Navajo population 
that most of the lung cancer historically has been caused by 
uranium mining. And there is no question that uranium is 
clearly a kidney toxicant and that studies in other communities 
that are exposed to uranium in drinking water have shown 
associations with kidney disease. The study that is currently 
underway in the Navajo area and the Eastern Agency is not 
completed yet. When its findings come out, I think we will know 
more about the magnitude and the nature of the association with 
kidney disease as well.
    Mr. Issa. I appreciate that.
    Mr. Chairman, I think the case has been made very well, and 
I look forward to getting to the second panel to see what is 
going to be done to clean up these sites. I yield back.
    Chairman Waxman. Thank you very much, Mr. Issa.
    In fact, Dr. Brugge, as I understood it, people at one 
point thought Navajos were immune to lung cancer because there 
was so low an incidence of lung cancer in the communities.
    Dr. Brugge. Right. I think that would have been in the 
1960's when there was not a full understanding of all of the 
etiology of lung cancer.
    Chairman Waxman. Before the exposure to the uranium mines?
    Dr. Brugge. Well, it was pretty clear by the early 1960's 
that uranium miners were developing lung cancer in the United 
States, including Navajo miners. It was clear 30 years before 
that or 50 years before that, that in Europe, uranium miners 
developed lung cancer and died. So the relationship between 
mining and lung cancer has long been established and is one of 
those associations that is very, very strongly proven.
    Chairman Waxman. Thank you.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman. I want to thank all 
the witnesses as well.
    I must say that in my 10 months on this committee, I have 
sat through a lot of hearings that made me sad and angry. But I 
am not sure that any hearing has shocked me as much as this 
one. This is truly a stunning example of failure on the part of 
our Government. I commend the chairman and Members of both 
parties for wanting to get to the bottom of this and to make 
sure that our Government responds in the way it should.
    We have heard from Ms. Hood and Mr. King about the 
contamination at the Northeast Churchrock Mine and about all 
the disease and health problems that have occurred there in 
proximity to that area. I would like to ask a little bit about 
the efforts of the Environmental Protection Agency to clean up 
that site.
    Mr. Etsitty, this is apparently, as I understand it, the 
only abandoned mine site in Navajo Country that the EPA is 
working on, is that correct?
    Mr. Etsitty. That is correct, in terms of getting to a 
cleanup. But we have been working with EPA on a more 
comprehensive inventory of many sites. But the Northeast 
Churchrock Mine site is the one that we have actually begun 
turning dirt on and removing contaminated soils from.
    Mr. Yarmuth. According to EPA, so far the agency has 
removed about 6,000 cubic yards of uranium-contaminated soil 
from the four properties. That doesn't sound like a lot of 
removal to me, when we hear about mountains of soil that are 
50, 60 feet high. Is this just a drop in the bucket and what 
remains to be done, in your opinion?
    Mr. Etsitty. Thank you, Representative Yarmuth. The amounts 
are the beginnings of a process that is going to continue. It 
was determined that initially, we would concern ourselves with 
cleaning up 135 acres of the Northeast Churchrock Mine site. 
But my staff and our agency pressed, because we knew that there 
were residences nearby to the north of the mine site. We did 
get additional analyses done to determine that those residences 
did indeed have a problem. We worked with U.S. EPA to take care 
of that in a time critical fashion, knowing that there is still 
a lot of work left to do at the mine site.
    We have yet to remove any contaminated soil from the mine 
site. We have done work to characterize the levels of 
contamination across the 135 acres. But the 6,000 cubic yards 
you are talking about does reduce much of the exposure risks 
that the residents have been living with for all these years, 
and puts it to a much safer level and gives us now the 
opportunity to turn our attention back to the mine site.
    We do expect to work with EPA to make a final determination 
as to the actual remedy that will be applied to the mine site. 
And we do this, knowing full well that the residents will be 
concerned, since they still live in close proximity, that any 
recontamination may occur. We are going to do our best to work 
with EPA to avoid that.
    But there is still a considerable amount of work to clean 
up surface soil. It is going to be costly. It is going to take 
a lot of engineering. And we are looking for adequate disposal 
capacity in the region, in the western United States. We would 
like to have all this contaminated soil moved off the nation.
    But as I close, we are talking just about soil, surface 
soil contamination. There are other questions regarding 
subsurface and groundwater that we haven't started to examine 
fully yet.
    Mr. Yarmuth. Is there any way you can estimate what 
percentage of the problem has been rectified by removing the 
6,000 cubic yards?
    Mr. Etsitty. It would have to be a figure less than 1 
percent.
    Mr. Yarmuth. Thank you.
    Dr. Brugge, I would like to ask you one question, because 
Ms. Hood talked about solving these problems for future 
generations. I am curious as to whether there is any way to 
know what the long-term ramifications of these health problems 
are for future generations. Is this something that generations 
are going to be affected by, even if we were to clean it all up 
today?
    Dr. Brugge. I am afraid that is certainly possible. 
Especially with uranium itself, there is increasing evidence, 
and has been evidence for about 15 years and that is growing, 
that it is associated with birth defects; most recently, that 
it may be an estrogenic compound. So based on that, I think you 
are right, there is a concern, and there may be a health legacy 
that is passed on even after these sites are remediated.
    Mr. Yarmuth. Thank you. My time is expired. Thank you, Mr. 
Chairman.
    Chairman Waxman. Thank you, Mr. Yarmuth.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Arthur, Mr. Etsitty, Dr. Brugge, Mr. King, Ms. Hood, 
Mr. Harrison and Mr. Manygoats, I apologize for the disruption 
and my leaving for a while, but I was called on the floor to 
vote. I want you to know that I read your testimony and it was 
no disrespect that I left while you were speaking.
    You have all suffered greatly, and in my opinion, 
needlessly for corporate greed and for our Nation's weapons 
program. I am personally embarrassed at the lack of concern for 
the Navajo people who lived and continue to live, those who 
have passed, I offer my condolences to your families for your 
loss. As you pointed out, the Navajo have stood valiantly by 
the United States in their time of need. As an American, I 
thank you for that.
    I can't go back and change the past, but I am here today to 
do what I can to make a better future for our children and for 
our planet. So I am going to ask you, and I would like you to 
be as specific as possible--I am sure my colleagues will 
followup with more extensive questions--what you think the 
Federal Government needs to be doing? Flying overhead in 
helicopters and taking photographs and doing very cursory 
studies of where there may or may not be uranium waste is not 
my idea of doing a full-scale cleanup.
    What do you think needs to be done in health effects, 
studies, care, treatment, cleanup of water and land? And I 
understand there are tunnels underneath that connect some of 
the water. Are you concerned about the rising costs of uranium 
right now on the market and the pressures that might come to 
be, when this problem has not been addressed fully?
    I will just listen. Thank you.
    Mr. Arthur. Mr. Chairman, members of the honorable 
committee here, I would also like to recognize our Congressman, 
the Honorable Mr. Udall, also the Honorable Mr. Matheson, who 
are present in this room. The Navajo Nation asks for a few 
things. I had stated in my closing remarks that I would be 
willing to discuss those issues and also recommendations.
    First, we would ask the Federal Government to establish a 
moratorium on any uranium mining and processing in Navajo 
Indian Country, as we have established legislation of our own 
that bans that. We also ask that until the following things 
happen, that the human costs of past activities be adequately 
addressed and compensated when the Navajo Nation and EPA have 
jointly determined that all contaminated sites have been 
cleaned up, consistent with their standards.
    Second, the United States should provide funding for at 
least 20 full-time employees and should detail up to 20 Federal 
environmental specialists at the Navajo EPA offices to address 
groundwater, surface and air and human health impacts of prior 
uranium mining activities with an appropriation of at least $5 
million for overhead and indirect costs.
    Third, all contaminated materials at the four so-called 
UMTRCA sites on the Navajo Nation should be removed and 
disposed of off-reservation in the same manner that our 
Honorable Congressman's State of Utah, and several other UMTRCA 
sites in non-Indian areas.
    Fourth, the Federal Government should fund and conduct 
comprehensive health assessments and site assessments at all 
520 or so abandoned uranium mines in Navajo Country. Fifth, 
there is sufficient data available today showing an urgent need 
to take comprehensive remedial action at the Tuba City and 
Church Rock sites, and that action should be mandated.
    Finally, based on the costs of cleaning up comparable 
sites, the Navajo Nation estimates that an initial 
appropriation of $500 million is needed for the cleanup of 
radioactive waste throughout the Navajo Nation. In conclusion, 
Mr. Chairman, I would just state again that in this room, there 
are honorable members of this committee, as well as highly 
intelligent staff that are associated with you as individual 
representatives. I heard earlier that maybe you do not 
represent us directly. But as elected officials, such as 
myself, although I come from one particular region of Navajo 
Nation, I speak here before you as a representative of all 
Navajo.
    Thank you.
    Chairman Waxman. Thank you very much. Thank you, Ms. 
McCollum.
    Ms. McCollum. Mr. Chair.
    Chairman Waxman. Yes.
    Ms. McCollum. For the record, I am going to submit an 
article called Yellowcake Blues. It was published on October 
11, 2006, and it speaks to the resolution that the Honorable 
Mr. Arthur spoke to. It was a vote of 63 to 19.
    Chairman Waxman. Without objection, that will be made part 
of the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.074
    
    [GRAPHIC] [TIFF OMITTED] T5611.075
    
    [GRAPHIC] [TIFF OMITTED] T5611.076
    
    [GRAPHIC] [TIFF OMITTED] T5611.077
    
    [GRAPHIC] [TIFF OMITTED] T5611.078
    
    [GRAPHIC] [TIFF OMITTED] T5611.079
    
    Chairman Waxman. We have Mr. Welch next.
    Mr. Welch. Thank you, Mr. Chairman.
    Distinguished members of the panel, I too would like to 
apologize for being called to vote. I did not wish to suggest 
any offense by leaving, Mr. Arthur, during your testimony.
    I also agree with my colleague, Mr. Yarmuth from Kentucky, 
that serving on this committee, we have heard some pretty bad 
things. But nothing quite so bad, quite so arrogant, quite so 
thoughtless, quite so consequential as what has happened on 
your lands. I think I speak probably for all of us.
    Ms. Hood, you talked about harmony and respect for Mother 
Earth and the way you were raised. It would do us all a lot of 
good to pay more respect to that.
    So I do have some questions. One of the incredible 
challenges that you all have talked about is the cleanup. 
Literally, we have hundreds of abandoned uranium mines. The EPA 
admits to 520 mines in the Navajo Nation, and depending on how 
I guess we define a mine, it could be up to 1,200. My 
understanding about your study is that 90 percent of these 
mines have been capped or filled by the Navajo Nation itself. 
But those caps don't do anything about the groundwater. They 
don't eliminate the radiation threat from the mines that you 
are exposed to, that your children are exposed to and in all 
likelihood, your grandchildren are or will be exposed to. We 
definitely need the EPA to do that.
    And the first step, in cleaning up the mines, is doing 
environmental site assessment. Mr. Etsitty, the U.S. EPA has 
done a site assessment at one mine, I guess the Northeast 
Churchrock Mine, is that right?
    Mr. Etsitty. That is correct.
    Mr. Welch. So they have one done and 519 more to go?
    Mr. Etsitty. There are numerous other mines to be 
addressed. But we have been working with the U.S. EPA and 
receiving grants to build our Navajo Superfund program. Through 
grants, we have amassed capacity and we now do several site 
assessments a year.
    Mr. Welch. So that is you, the Nation is doing that?
    Mr. Etsitty. Yes.
    Mr. Welch. What I understand from our briefing is that the 
EPA flew over the mines and took aerial radiation levels. But 
they aren't detailed enough to create a cleanup plan. So they 
just gave you a list of the mines with information about nearby 
settlements in the water sources and asked you to prioritize 
them? And the EPA said it would then begin site assessments on 
the highest priority? Is that your understanding of what is 
going on?
    Mr. Etsitty. Yes. We have had a project going back several 
years to inventory and identify as many of these sites, and it 
did begin with aerial surveys. Now we are at a point where we 
have prioritized the top 32 sites with Northeast Churchrock 
being the top priority site on that short list.
    Mr. Welch. How long has the EPA had your list of 
priorities?
    Mr. Etsitty. We have been on this project, which we call 
the Abandoned Uranium Mine Collaborative, and we have been 
working with EPA pretty close to 10 years. The list was 
developed early on. It was just a matter of compiling all the 
site characteristic data into a data base. We did have 
ambitious goals at the beginning. We ran into cost difficulties 
with the final product, but we do have a completed product.
    I would say that the information has been available for 
about 8 years.
    Mr. Welch. So has the EPA begun any site assessment of the 
mines you have identified?
    Mr. Etsitty. Directly, just the Northeast Churchrock Mine 
site.
    Mr. Welch. So just one?
    Mr. Etsitty. Yes.
    Mr. Welch. So we haven't even begun the assessments, let 
alone the cleanup?
    Mr. Etsitty. As I said earlier, through the Navajo 
Superfund program, we have done preliminary assessments and 
site investigations of some of the known abandoned uranium mine 
sites. We have information that we have collected in 
coordination with U.S. EPA, so we have information on other 
mine sites.
    But EPA has taken the initial remedial action at Northeast 
Churchrock alone.
    Mr. Welch. So there is a long way to go, obviously.
    We have heard a lot of testimony about some of the Navajo 
homes being built with radioactive materials. I gather you 
build homes in the traditional way, with materials that are on 
your lands. You didn't realize, obviously, that there was any 
threat of danger. Has the Navajo Nation, has EPA tested homes 
to see how many of them might be contaminated? Have you had any 
testing on them from the EPA?
    Mr. Etsitty. Through another grant program, under the radon 
program we have done surveys of hundreds of homes across the 
Navajo Nation. We have identified a number of those homes that 
do have high radon readings.
    Mr. Welch. And these are homes that people are now living 
in?
    Mr. Etsitty. Homes that people did live in, and in some 
places continue to live in. We are trying to assess how many 
people still live in homes with high radon levels. Again, radon 
is a naturally occurring element. But we are also trying to 
pinpoint those homes that have been constructed with materials 
that are radioactive.
    Mr. Welch. Let me ask Dr. Brugge, if I could, what type of 
threat that poses to the inhabitants?
    Dr. Brugge. The homes that are built with uranium ore 
tailings or materials that have uranium in them are going to 
have all the decay products from uranium, including radium 
itself. Radium decays into radon. So there are going to be high 
levels of radon, especially if the space is enclosed and it 
doesn't have good ventilation. Depending on the amount of 
uranium and the ventilation, those levels can be very high. 
There was one very notable case in Monument Valley that was 
well documented, and the levels of radon in that home were 
exceedingly high, and in my opinion presented a very, very 
strong risk to the family that had lived there for a long time.
    Chairman Waxman. Thank you, Mr. Welch. Your time is 
expired.
    Mr. Welch. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Manygoats, I have a question for you. I understand 
there are five closed mills in the Navajo Nation, and my 
question concerns the Tuba City, AZ mill. I understand you grew 
up right across the highway from the Tuba City mill, and that 
your dad worked in the mill, is that correct?
    Mr. Manygoats. Yes, it is.
    Ms. Norton. Did you ever play around the mill, Mr. 
Manygoats?
    Mr. Manygoats. Yes.
    Ms. Norton. In what way were you playing?
    Mr. Manygoats. I would play around, like a little kid would 
do, roll around and jump through the yellow powder.
    Ms. Norton. So you would roll around what amounts to be 
yellowcake?
    Mr. Manygoats. Excuse me?
    Ms. Norton. So when you would roll around in the mill, you 
were really rolling in yellowcake, is that correct?
    Mr. Manygoats. Yes, I did.
    Ms. Norton. Did anyone at the mill warn you or your dad 
about having you or youngsters playing in the yellowcake?
    Mr. Manygoats. No, they didn't.
    Ms. Norton. In your testimony, you mention 3 to 4 inch 
metal balls that were used at the mill. Did you play with those 
balls?
    Mr. Manygoats. Yes, I did.
    Ms. Norton. What did you think they were? How did you play 
with them?
    Mr. Manygoats. Well, being a little boy, as a marble, shot 
put.
    Ms. Norton. Shot put, marbles?
    Mr. Manygoats. Yes, seeing how far we could throw it.
    Ms. Norton. Could I ask Mr. Etsitty, are you familiar with 
these metal balls, and would they have been radioactive?
    Mr. Etsitty. Thank you, Representative Holmes Norton. I am 
familiar with the metal balls. They are part of the machinery 
and processing equipment that were present at the mills, not 
only metal balls but ceramic balls as well. The actual 
radioactive nature of these--they come in contact with the ore, 
they are usually part of the crushing of the raw ore, and 
creating the finer yellowcake dust.
    The metal ores may take up some radioactivity and be 
radioactive themselves, but the ceramic balls----
    Ms. Norton. So these youngsters were essentially playing 
with radioactive marbles or balls?
    Mr. Etsitty. Yes, many of these materials were part of the 
processing process, so they came in contact directly with 
uranium ore and yellowcake.
    Ms. Norton. Mr. Manygoats, could I ask you, when your dad 
came home, what did his work clothes look like?
    Mr. Manygoats. My father had a uniform, and the yellowcake 
was all over his uniform.
    Ms. Norton. So he came home with yellowcake on his clothes. 
Were there any other ways that you believe uranium yellowcake 
got into your home?
    Mr. Manygoats. By my dad bringing his uniform with the dust 
on him.
    Ms. Norton. Is it the case that your parents actually 
cooked on a screen from the uranium mill?
    Mr. Manygoats. Yes, we did.
    Ms. Norton. Did anyone warn your family that the yellowcake 
on this screen was radioactive and dangerous?
    Mr. Manygoats. No, they didn't.
    Ms. Norton. Did you and your brothers and sisters ever get 
hurt from the waste that was at the mill?
    Mr. Manygoats. Yes. My sister, Daisy, she stepped in one of 
the boiling chemicals and burned her feet and has scars. Also 
my brother, Tommy.
    Ms. Norton. Did anyone say that might be from uranium or 
yellowcake or anything radioactive? Did anyone tell your 
parents that?
    Mr. Manygoats. No.
    Ms. Norton. Have you, or has anyone in your family had 
health problems?
    Mr. Manygoats. Yes, all of my brothers and sisters, we have 
health problems.
    Ms. Norton. Including what?
    Mr. Manygoats. Excuse me?
    Ms. Norton. What kinds of health problems?
    Mr. Manygoats. We have our eyes and hearing, with our ears, 
and also the itchiness, the itch and the skin discoloration.
    Ms. Norton. Have you had three surgeries to remove----
    Chairman Waxman. Ms. Norton, your time is expired and other 
Members are waiting.
    Ms. Norton. Could I just offer my appreciation to Mr. 
Manygoats for being here today to tell his story? I know in 
light of the three surgeries you yourself have had, and the 
growth in your own eyes and the problems with your sister's 
eyes, this has not been easy for you or for them, but you have 
done an important public service for the Navajo Nation and for 
the Congress and the Nation. Thank you very much.
    Chairman Waxman. Thank you, Ms. Norton.
    Mr. Shays.
    Mr. Shays. Mr. Chairman, first, thank you very, very much 
for having this hearing. I thank you for acknowledging that 
this is a problem that crosses both sides of the aisle and goes 
back many, many years.
    I purposely came back to this hearing, I had a bill on the 
House floor and we did have votes and I apologize for missing 
your statements. But I did want to personally say that I will 
support any legislation and I will speak to anyone within our 
Government that we need to speak with, and I will work with any 
of my colleagues to once and for all address this issue to the 
extent that we could address it. And I want to apologize to 
each and every one of you that, in the year 2007, we would 
still have to be dealing with this issue.
    I don't know which one to ask this first question, but my 
question is, and maybe you will just decide it for me, my first 
question is, did the U.S. Government pay for these resources, 
or did we just simply say, we will provide you employment if 
you let us mine what is on your reservation?
    Mr. Arthur. Mr. Chairman and members of the committee, 
Congressman Shays, the Navajo Nation did make lease agreements 
in the processing and also of mining the ores that were on the 
trust land. There are lands that are off the trust land but 
within Navajo Indian Country.
    Mr. Shays. When you look at the 5 milling areas and the 520 
mines, and you look at groundwater contamination, what do the 
experts tell you is the first, most serious health threat? That 
would be my question. And after that, which do they say is the 
most expensive aspect to deal with?
    Mr. Etsitty. Mr. Chairman, members of the committee, 
Congressman Shays, thank you for the question. I would have to 
say that most of what we have heard regarding the five mill 
sites, in getting to the question of cleaning up contaminated 
groundwater, has been primarily that the locations of these 
sites are far from high population centers and that there is 
very little threat to our groundwater. That is what we have 
heard in the past.
    The costs to continue cleaning up groundwater is growing 
and making sure that the groundwater that is recognized as 
threatened, that the protections necessary to keep that 
groundwater safe for our purposes, for drinking water or for 
livestock or for other agricultural or other uses of that 
water, remain a top priority for us today. We would like to 
make sure that those resources are protected.
    Mr. Shays. You can close off the mines, correct? You can 
block them, you can board them up, whatever you do. Is that 
true?
    Mr. Etsitty. Mine features and mines themselves, the 
exploratory holes or the actual mining vents, can be closed off 
physically.
    Mr. Shays. Have they been?
    Mr. Etsitty. Many of them have, yes, under the authorities 
of SMCRA and the Abandoned Mine Lands----
    Mr. Shays. Are the areas where you have had milling, are 
those basically fenced off, are they operational?
    Mr. Etsitty. The former mill sites have been closed under 
the UMTRCA law. Where they sit today, there are caps covering 
all the mill tailings and groundwater treatment systems in 
place to handle ongoing----
    Mr. Shays. So is there a concern that we continue to 
contaminate the groundwater or that we just have to deal with 
what has already been contaminated?
    Mr. Etsitty. At the mill sites, the caps were placed, but 
there were no liners that were engineered at the time. We do 
have concerns now, knowing what we know now about putting in 
waste into the ground. We ask that these considerations be 
taken up by the Federal agencies and we take another look at 
exactly how proficient and how effective the current 
groundwater monitoring systems are, and take a look at the 
potentials for contamination coming out from underneath the 
UMTRCA caps.
    Mr. Shays. Thank you.
    Mr. Chairman, just a desire on my part to make sure that as 
this committee works on it, that we can collectively work 
together on this issue.
    Chairman Waxman. Thank you very much, Mr. Shays.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. I want to thank all of 
our witnesses who traveled so far from the Navajo Nation to 
enlighten and inform us here today.
    Mr. Arthur, you noted in your statement that Navajo 
warriors have served the United States with distinction in all 
major conflicts since World War I. I think you could make an 
argument, I wouldn't be sitting here today without the bravery 
and distinguished service of the Navajo Code Talkers who served 
on Iwo Jima.
    The committee staff provided us with a map of the Navajo 
Nation showing these abandoned uranium mines. One of the sites 
that jumped out at me was the site in Mr. Matheson's district 
in Utah, Montezuma Creek. My father graduated from Montezuma 
High School in Iowa in 1943, before joining the Marine Corps 
and serving on Iwo Jima. One of the most moving things I have 
ever seen was the 50th anniversary on Iwo Jima, when a 
representative of the Navajo Nation sang the Marine Corps hymn 
in Dine on top of Mount Surabachi. So I want to thank you all 
on behalf of my family for allowing my father to return home.
    Dr. Brugge, I want to talk to you about some of the 
chilling descriptions we have heard from the panel's witnesses 
about the contamination of soil and groundwater on the Navajo 
Nation with uranium mine and mill waste over the period of 30 
to 40 years. What does science tell us about the health effects 
on a population with long-term exposures to uranium mine waste?
    Dr. Brugge. The science is very extensive, and I don't have 
enough time to tell you all of it. But I will reiterate the 
primary points that I think are particularly salient and that 
also have the strongest science behind them. I think at the top 
of the list we have to put radon. Radon is an extremely potent 
lung carcinogen and off-gases from uranium ore. So I think that 
has to be on the list.
    Uranium itself is more of a heavy metal toxin. It is well 
known in terms of its effects on kidneys, which you heard 
testimony about, concerns about kidney disease. It has also 
been shown to cause birth defects and numerous other health 
outcomes for which there may be somewhat less evidence but 
suggestive possibilities. Radium is a highly radioactive 
material in the uranium ore. Radium, among other things, is 
associated with bone cancer, with cancer of parts of the head, 
the mastoid air cells and the nasal sinuses. It is also 
associated with leukemia.
    I would include arsenic as an important contaminant that is 
out in the Navajo area, which is strongly known to cause skin 
and lung cancer as well as skin changes. I was struck by the 
description of pigmentation changes, which are clearly 
associated with arsenic exposure. So there is a very large and 
deep scientific base that shows that these hazardous materials 
cause health effects. Some of them are proven at a causal level 
from a scientific perspective. Others are not so certain.
    What we don't know, and I was struck by Mr. Manygoats' 
story, is what the health effects on a child rolling around in 
yellowcake might be, with the mixture of contaminants and at 
that age in particular, being a very young child. So I think 
there are some areas where we don't know all of the health 
outcomes, but we know enough to know that this is very 
hazardous stuff.
    As I was coming here today, I though the analogy is, none 
of you would want your children playing in this uranium ore. 
None of you would permit it. We have in the Navajo Nation, lots 
of children playing in this ore as if it were a sandbox, 
almost.
    Mr. Braley. You have reviewed the studies that have been 
done to date on the health effects of uranium contamination on 
the Navajo Nation, is that correct?
    Dr. Brugge. That is correct.
    Mr. Braley. In your view, are those studies adequate to 
determine whether the communities and individuals are at risk, 
and the types of health effects for which they are at risk?
    Dr. Brugge. I believe there is a need for additional 
research, particularly because most of the studies showing 
these associations with uranium ore components have not been 
done in the Navajo area. So to know specifically what has 
happened out there I think is important.
    Mr. Braley. Are you aware of any types of cluster studies 
that have been done from an epidemiological standpoint to 
analyze the types of cancer that have been reported and the 
locations to determine whether there is a causal relationship?
    Dr. Brugge. That is something that has not been done in the 
Navajo area and could be done as one of the possible directions 
that research could take.
    Let me just take a moment, though, to make clear that one 
thing that I want to be absolutely clear about is, we don't 
want to say that we need more research before we start 
remediating these sites. This contamination is highly toxic, we 
know it is toxic to humans. We know enough about the toxicity. 
The reason why we need more research is to understand more 
fully the extent of the injustice that was done out there, and 
how it has affected the Navajo people.
    Mr. Braley. Has anybody done any type of economic analysis 
of the long-term health costs to the Navajo people resulting 
from this contamination and looking forward who will bear the 
ultimate responsibility for those costs?
    Dr. Brugge. I am not aware of such a study.
    Chairman Waxman. Thank you, Mr. Braley. Your time is 
expired.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Etsitty, this is serious business, isn't it? Or let me 
go to Dr. Brugge, I am sorry. I was getting my name tags mixed 
up. This is serious business, isn't it?
    Dr. Brugge. I would agree with that, yes.
    Mr. Cummings. And I would take it that, I believe very 
strongly in what the Bible says, it says do unto others as you 
would have them do unto you. I just wonder, these houses that 
these folks lived in, are living in, it is kind of dangerous, 
isn't it?
    Dr. Brugge. I would say that living in a home that is 
constructed with uranium-contaminated material is extremely 
dangerous, yes.
    Mr. Cummings. And going back to you, Mr. Etsitty, you 
provided the U.S. EPA with a list of homes that the Navajo 
Nation EPA believes may be radioactive, is that right?
    Mr. Etsitty. Yes, Representative Cummings, we have.
    Mr. Cummings. How long ago did you do that, sir?
    Mr. Etsitty. That list has been available for about 5 
years, as we have developed all the inventory information.
    Mr. Cummings. So that the committee will be clear what you 
mean by available, did you present that to the EPA, or has it 
just been sort of out there?
    Mr. Etsitty. It was collected through our Abandoned Uranium 
Mining Collaborative effort, and it has existed in a list form.
    Mr. Cummings. So EPA would have possession of it, or 
wouldn't they?
    Mr. Etsitty. They do have possession of it, yes.
    Mr. Cummings. I see. And they have had it for 5 years, you 
said?
    Mr. Etsitty. Yes.
    Mr. Cummings. That is a long time, isn't it?
    Mr. Etsitty. Well, we have taken a long time in developing 
our inventory and putting together all this information, yes.
    Mr. Cummings. And they didn't even immediately offer to 
retest these homes and tear down and replace any radioactive 
homes that people were living in?
    Mr. Etsitty. Congressman Cummings, we were fortunate to 
have a visit by Representative Patrick Kennedy in 2001, which 
resulted in the cleanup of two homes.
    Mr. Cummings. Wait a minute. Let me get this right. How 
many homes were on the list? I thought I heard you say a little 
bit earlier 80 to 90.
    Mr. Etsitty. Eighty to 90 homes, yes.
    Mr. Cummings. Eighty to 90, and 2 were removed, is that 
right?
    Mr. Etsitty. Two were demolished, and new homes were 
constructed for those families back in 2001.
    Mr. Cummings. So I think you testified, is there still some 
ongoing testing with regard to radon in these homes?
    Mr. Etsitty. Yes. We have an annual program that does radon 
testing for many residents, and Head Start schools and elderly 
centers across the Nation.
    Mr. Cummings. Now, let me make sure I am clear on this. Is 
that above the 80 or 90 that you talked about? In other words, 
you have your 80 or 90 and then you are still testing for 
others? Is that right?
    Mr. Etsitty. Yes. The 80 or 90 refers to homes that were 
built with contaminated radioactive materials.
    Mr. Cummings. So they are still there?
    Mr. Etsitty. Yes.
    Mr. Cummings. Are people living in those homes to your 
knowledge?
    Mr. Etsitty. To some extent, we don't have exact 
information, and that is what we continue to try and update on 
an annual basis, those families that continue to use those 
homes for various purposes, including residing.
    Mr. Cummings. Wait a minute. Let me get this right. You 
have 80 or 90 homes, you know where they are, like 2014 Madison 
Avenue, and you mean you don't go to those homes and see if 
people are still living there? Is that what you are trying to 
tell me?
    Mr. Etsitty. From time to time we do, but we need to update 
that inventory on a regular basis.
    Mr. Cummings. So you don't know whether people are living 
in the 80 or 90 homes or not, is that what you are telling me?
    Mr. Etsitty. That is part of our situation, yes.
    Mr. Cummings. Let me ask you this, Dr. Brugge. We are going 
to have some higher-ups from the EPA come up in a few minutes. 
They are going to be sitting in those chairs that you are 
sitting in. Not very long ago, we had the head of FEMA and we 
were talking about trailers down in the Gulf Coast with 
formaldehyde. And as a result of our hearing, a hearing just 
like this, the head of FEMA said, you know what, we have to get 
those people out of there, we have to warn them, because they 
are in danger.
    I am just curious, what would you want the EPA folks 
sitting behind you, and I am sure they wouldn't want their 
children or families to live in these houses, but I am just 
curious as to what you would love to see them do. This is the 
Government of the United States of America. We have a duty to 
treat people right. That is where our moral authority comes 
from. I am just wondering, what would you have them do? It is 
going to be interesting to hear what they have to say. Because 
I am going to ask them how they feel about what you are about 
to say.
    Dr. Brugge. Thank you, Congressman.
    I don't know the details of all those homes and exactly 
what level of contamination that they have. But to the extent 
that they are similar to the home in Monument Valley that was 
demolished and replaced, then I think that should happen to the 
rest of those homes as well. It is critical to understand that 
I believe the reason that hasn't happened is a lack of 
resources. You can't just condemn someone's house. You have to 
give them another place to live.
    So I think that would be what I would want to see happen.
    Mr. Cummings. Thank you very much.
    Chairman Waxman. Thank you, Mr. Cummings.
    I want to now recognize our colleague, Representative 
Udall. Congressman Udall has talked to me about this issue a 
number of times. We are holding this hearing today, but I don't 
want anybody to think it is only a one hearing matter. We are 
going to continue to pursue this issue until we get it right. 
So Congressman Udall, I want to recognize you to question the 
witnesses and tell you that I look forward to working with you 
to get this situation resolved and restore justice to those 
people who have been denied it.
    Mr. Udall. Thank you very much, Chairman Waxman. I also 
apologize to the early witnesses for not being here during your 
testimony because of the vote that took place on the floor. Mr. 
Chairman, I would like to put an opening statement for myself 
into the record, if that would be acceptable.
    [The prepared statement of Hon. Tom Udall follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.080
    
    Mr. Udall. Mr. Chairman, what you have done here is very, 
very important, because the legacy, by holding this hearing, 
the legacy of uranium mining has been a real tragedy for the 
Navajo people. I think each one of the witnesses today has 
talked about pieces and parts of that.
    But the tragedy for the 250,000 people that live at the 
Navajo Reservation cuts across all families. The things that 
you are hearing today, where you could go to any home on the 
Navajo Nation and ask questions about these kinds of issues, 
and most families would have similar stories, and may have well 
lost a breadwinner due to uranium mining and to lung cancer or 
some other health problem. So it is absolutely clear that not 
only this committee but other committees of Congress need to do 
the things like a RECA update, the Radio Exposure Compensation 
Act. There are families, as Dr. Brugge and others have 
testified, that were exposed to health hazards and there have 
not been studies of those families and what the health care 
impacts have been.
    There is a massive cleanup problem that the Navajo Nation 
is trying to tackle through Mr. Etsitty's agency, but it still 
is enormous and the Federal Government hasn't put the resources 
behind it. We have a situation today where a company is trying 
to move out onto the Navajo Reservation and mine in the 
groundwater under Crown Point with an experimental technology 
where these people that drink from this groundwater, their only 
source of groundwater, would be exposed to this experimental 
technology, and possibly have their groundwater polluted 
forever.
    So there are many, many problems there. I think we need to 
remember when folks step forward and tell us that nuclear power 
is green power, that the real legacy of the nuclear age you are 
seeing here, you are seeing here first-hand. People don't know 
it, but the costs I know, because I have been involved with my 
family in a variety of lawsuits, the costs have been enormous. 
Thousands of claims have been paid by the Federal Government; 
hundreds of millions of dollars have been paid out in 
compensation for these injuries. When you talk about hundreds 
of millions of dollars, they were in sums of $100,000, 
$150,000, $50,000. So there have been some very, very serious 
injuries and deaths caused by what has happened.
    I would like to talk a little bit with Mr. Harrison about 
exposures of mining families and ask you a couple of questions. 
Is it true, Mr. Harrison, that your father worked in different 
uranium mines when you were young, a number of different 
uranium mines?
    Mr. Harrison. Yes, Congressman Udall. My father started 
mining around Cove, AZ and eventually moved out to Colorado, 
worked the Colorado mines, then some small mines in the Utah 
area for over 20 years.
    Mr. Udall. Did your family live near where your father was 
working at the mine?
    Mr. Harrison. In early childhood, when we were not in 
school, we lived in the mining camps. We did that off and on 
for, I would say from the mid-1950's to the 1970's.
    Mr. Udall. While you were a child living at the camp, did 
you play on the piles and have occasion to see other children 
playing out on these piles?
    Mr. Harrison. All of these mining sites were up in the 
mountains, to the point where transportation would be a 
problem. So the miners would live right next to where they 
mined, and also the waste piles would be there, where all the 
families had access to these waste piles, living on them, and 
also children there would have access to the entrances of the 
mines, too.
    Mr. Udall. Where did you get your drinking water for your 
family?
    Mr. Harrison. If the water source runs out, you bring the 
water supply to the mountains. If the water source runs out, 
then you would go to the mines to collect water for drinking 
water.
    Mr. Udall. So you were drinking water that was out of the 
uranium mines?
    Mr. Harrison. Yes. If it was there, we would use the water 
for all purposes.
    Chairman Waxman. Will the gentleman yield to me on that 
issue?
    Mr. Udall. Thank you very much, Mr. Chairman.
    Chairman Waxman. Mr. Harrison, as I understood your opening 
statement, you said that the drinking water that had uranium in 
it was being mixed with water that had less contamination in 
it. This was at the urging of the Bureau of Indian Affairs. Is 
that an accurate statement?
    Mr. Harrison. Yes, Mr. Chairman----
    Chairman Waxman. Or was that the Indian Health Service?
    Mr. Harrison. Indian Health Service. I stated that I lived 
in a community where the mining took place; I grew up in Cove, 
and I lived just east of Red Valley. We had two water wells 
that produced over 115 gallons a minute. Both of these wells 
exceeded EPA standards.
    We tried to resolve that by working with General Electric. 
We were asked to pursue a grant through USDA. Because of the 
bureaucratic system that they had, we ran out of time to 
address the water well in a 24 month period. So the Indian 
Health Service went to another course of action, to blend that 
water well with another source of water to cut down the EPA 
readings.
    Chairman Waxman. I just find that unbelievable, that their 
solution was to take contaminated water and mix it with less 
contaminated water and have people drink it. This is to me 
amazing that would be the solution that the Indian Health 
Service would come up with, after not being able to figure out 
what to do, they would come up with a solution that to me can't 
be a solution to protect people's health.
    Mr. Davis.
    Mr. Davis of Virginia. I just have a couple of questions, 
Mr. Chairman.
    Chairman Waxman. Just a minute. Mr. Udall, were you 
finished?
    Mr. Udall. I would like to just wrap up with a couple more, 
if I still have time, Mr. Chairman.
    Chairman Waxman. Please proceed.
    Mr. Udall. This contaminated water was used for making 
coffee, washing, and even baby formula, is that correct, in 
your household?
    Mr. Harrison. Yes, Congressman Udall. If there was a 
sufficient amount of water that was in a mine, the workers 
would make a cistern in the mines where they would build almost 
like a pool of water, and there would be cups around it, where 
they had access to it. Many of these families would take this 
water home. They traveled back to the Navajo Nation from 
Colorado.
    I remember very well, they would take water in a canvas 
bag, say that this is mountain water, and they would take it 
back to their homes.
    Mr. Udall. You lost a brother, 6 month old died of a 
stomach ailment, is that correct?
    Mr. Harrison. Yes, sir. He was born in June 1955 and he 
died in November 1955. My mother was telling me that she was 
taking this mine water and mixing it with the baby formula. 
Back then they had powdered milk. So they would use that to 
feed babies. I know of one family that lost four little babies 
during those years.
    Mr. Udall. Your father died of lung cancer?
    Mr. Harrison. My father died from lung cancer at the age of 
46 in 1971.
    Mr. Udall. Three of your other siblings have thyroid 
problems?
    Mr. Harrison. They are on medication now to control and to 
correct the thyroid disorders.
    Mr. Udall. And we have heard that you lost a kidney. Thank 
you, Mr. Chairman, I hope we will get a chance for a second 
round.
    Chairman Waxman. Thank you very much, Mr. Udall.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you all very much.
    I was recently reading a letter sent by Senators Bingaman 
and Domenici which states that the Navajo Nation believes it is 
the responsibility of the Department of Energy, pursuant to the 
Uranium Mill Tailings Radiation Control Act [UMTRCA], to clean 
up the sites in the vicinity of the uranium mill. Is this 
accurate? Is this your understanding? Let me just ask the 
Navajo leaders.
    Mr. Etsitty. Yes.
    Mr. Davis of Virginia. OK. Do you think that a 
comprehensive health study would be either necessary or helpful 
to determine what the actual problems are that exist in the 
community health-wise?
    Mr. Arthur. Mr. Chairman and members of the committee, 
another study would probably help. But I think today we have 
sufficient data and information to immediately proceed with 
solutions.
    Mr. Davis of Virginia. OK. The reason I asked, the second 
panel takes a little bit different view on this. And if you can 
get something comprehensive, they may view some of this as 
anecdotal and the like. It could strengthen the case for it.
    According to the EPA, they have done aerial surveys, 
sampled the water and looked at homes suspected of being made 
from contaminated material. But ultimately, they contend that 
how these mines are handled rests in the hands of the Navajo 
Nation. Do you agree with that?
    Mr. Arthur. No, sir.
    Mr. Davis of Virginia. If it is a matter of funding, has 
the Navajo Nation yet determined what, if any, additional funds 
will be necessary to address the problem?
    Mr. Arthur. Mr. Chairman, members of the committee and 
Congressman Davis, we just recently, or in this testimony 
requested an estimated amount.
    Mr. Davis of Virginia. Are we in the process of determining 
how much will be needed to resolve the issue? Is anybody doing 
a study at this point to try to get at how much is needed?
    Mr. Etsitty. Thank you, Congressman Davis.
    The inventory that we have compiled gives us a list upon 
which we can start to construct an estimation. And the work 
that we have done with U.S. EPA at Northeast Churchrock Mine 
gives us some initial cost figures. But we have not done 
anything at this point that would lead toward something total 
and comprehensive.
    Mr. Davis of Virginia. I guess the only question I would 
have from this vantage point is, we want to understand what the 
costs are as we get into this in a comprehensive way. I know 
you would want to do that too, before we jump in.
    Thank you very much. I appreciate your testimony. Thank 
you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Davis.
    I am very pleased that Representative Matheson agreed to 
join us today, because he is a leader on environmental issues, 
especially cleanup issues and matters relating to uranium in 
Utah, not just on this issue, but on other issues as well. So I 
would like to recognize him for 5 minutes.
    Mr. Matheson. Thank you, Mr. Chairman. Thanks for the 
opportunity to participate, not as a standing member of this 
committee, thank you for the opportunity to participate in the 
hearing today.
    I also want to thank all the witnesses for their time and 
their effort and their testimony. It is interesting, if you 
think about the environment in which all this started back in 
the 1940's, when uranium fever really swept this country, 
Congress passed something called the Atomic Energy Act in the 
1940's and created the Atomic Energy Commission. By one 
estimate, Americans went out and bought 35,000 Geiger counters 
in 1953 alone. Native Americans became a big part of the effort 
to look for uranium supplies because of their knowledge of the 
land.
    What should also be noted is that even back in the 1940's, 
the Government knew that folks were at risk when involved in 
this activity. A U.S. public health researcher named Henry 
Doyle found in 1949 that the Navajo workers were not given pre-
employment exams and there were no medical programs for miners 
in those days. Adverse health effects to miners were already a 
concern at the time, to say nothing of the risk to the public 
and others in the Navajo Nation.
    I am proud to represent the Navajo Nation, at least the 
Utah portion. It has been one of the best experiences I have 
had to be a Member of Congress, and I am honored to have that 
opportunity. I am the son of a down-winder who lived in 
southern Utah during the nuclear weapons testing. He died when 
he was 61 of multiple myeloma. I have worked with 
Representative Udall extensively on looking at the Radiation 
Exposure Compensation Act to see if there are ways that we 
ought to be amending that act and expanding it.
    The important thing about the Radiation Exposure 
Compensation Act is not necessarily the compensation, but it is 
the acknowledgement on the part of the Federal Government that 
it did something wrong. Because back in this euphoria of the 
1940's and 1950's, when the Atomic Energy Commission and 
uranium fever took over this country, a lot of mistakes were 
made. Folks in southern Utah were referred to by the Atomic 
Energy Commission as a low-use segment of our population. For 
those of us who had families there, we didn't really agree with 
that statement, and I am sure the Navajo Nation doesn't agree 
with that as well.
    So it is important, and I thank the chairman for addressing 
this issue and bringing this matter to light in this hearing. 
There is so much work to be done.
    I wanted to ask Mr. Harrison a question. I really 
appreciated your comments about the need to readdress RECA, 
particularly as it relates to the Navajo Nation. I have been 
concerned about this for some time, that we had some provisions 
in RECA that are very difficult to implement, because of the 
difficulty on the Navajo Nation in meeting the requirements for 
documentation to prove eligibility for RECA. It is something 
that I think Congress needs to address, and I would welcome any 
suggestions you may have on how we ought to be amending the 
Radiation Exposure Compensation Act. Do you have anything to 
offer on that?
    Mr. Harrison. Thank you, Mr. Matheson. Currently, Navajo 
Nation has drafted three technical amendments and three statute 
changes to pursue RECA changes. We would very much like to have 
Members of the U.S. Congress work these provisions to where all 
these former miners would be adequately compensated with less 
stringent requirements. It is very important also to consider 
the post-1971 uranium workers. We have many of them come to our 
offices to get compensation.
    Mr. Matheson. I look forward to reviewing those 
suggestions. I am very interested in pursuing that.
    Dr. Brugge, I would like to thank you for the research you 
have done. You have asked that Congress conduct more health 
research, and I would like to know if you have suggestions 
about which studies you believe would be most beneficial. 
Again, I think you may face some of the challenges because of 
the lack of documentation and how that affects researchers 
trying to conduct statistical studies or epidemiological 
studies. Do you have any thoughts on what else we should be 
doing?
    Dr. Brugge. Yes. I think there are basically two types of 
approaches that could be taken to future research studies. One 
would be what has been referred to here as sort of a 
comprehensive public health study that looks for a clustering 
of diseases and uses Indian Health Services cancer registry, 
maybe other data of that sort, to look for what diseases are 
higher in the communities that have more uranium exposure.
    I think the other approach would be to look for some of the 
diseases that we know are associated with uranium from other 
studies, and see whether the same association holds. These are 
called case control studies, where perhaps you would identify 
children with birth defects and children without, and then look 
back at their exposure history. The kind of rich detail that 
Mr. Harrison was providing has not been brought into those 
kinds of studies, and to do that, and see whether the baby 
formula, playing on the tailings piles and those sorts of 
things are clearly associated.
    I think it would be interesting, but I would reiterate, not 
necessary, to proceed with remediation of these sites.
    Mr. Matheson. Thank you, Mr. Chairman. I will yield back.
    Chairman Waxman. Thank you very much, Mr. Matheson.
    I do want to thank all of you for your very powerful 
testimony. I guess there are two comments I want to make as we 
move on to the next panel. One, aside from the fact that this 
is very, very powerful, Mr. Etsitty brought in some dirt that 
he showed was very radioactive. As I understand it, Mr. 
Etsitty, that is not the most radioactive part of the dirt that 
is on your property. Is that correct?
    Mr. Etsitty. Mr. Chairman, that is correct. There are many 
other samples and places from where this sample came from that 
are much higher. But for the demonstration that we did here 
this morning, we had to abide by shipping constraints and also 
safety overall. What I demonstrated was exposure, and what we 
had here was very limited exposure. The levels that we picked 
up on the particular sample were high, but not putting us in 
this room immediately at risk. If members were to consider that 
the levels that people are being exposed to over the terms of 
tens of years, decades, it does amass to a grave public health 
concern.
    Chairman Waxman. We had to go through extraordinary efforts 
to allow you to bring that sample into this hearing. The 
Capitol Police were very concerned about it. We had a lot of 
people who were concerned whether we should even bring that 
small little sample into the room. And yet we should realize 
that this is the kind of radioactive dirt that the Navajo 
people are being exposed to every single day.
    The second point that I want to make, Mr. Harrison, is that 
the idea that we would have blended water, blended water, water 
contaminated with uranium; it is radioactive, and then blended 
with non-contaminated water; I don't think anybody in this 
Capitol would drink it. And yet we are asking people in the 
Navajo Nation to drink that water, and the Federal Government 
is giving its OK to this?
    If we are not willing in this Congress to be exposed to the 
dirt or the water that you are exposed to every single day, 
then I don't think we ought to ask you to be exposed to it, 
either. And I think that is a telling point for how people here 
in Washington think it is maybe different for you. Why they 
should think it is different for you and they wouldn't want it 
for themselves underscores the neglect that we have given to 
this very serious problem.
    I thank you, each and every one of you, for being here 
today. We are going to dismiss you and move on to the second 
panel.
    But before we do that, I want to declare a 10 minute 
recess, just a short recess, then we will have the second panel 
here and move on with the hearing.
    Mr. Arthur. Mr. Chairman, members of the honorable 
committee, on behalf of the Navajo people and certainly the 
Navajo Nation government, the Navajo Nation Council, that 
consists of 88 members, and we don't have a party system. I 
only ask that you do not approach this as a Republican or a 
Democrat or an Independent. This is an issue related to the 
human being, my people. Please, I ask that you go forward with 
this discussion in a manner that would be more on the human 
concept, rather than on a party line.
    Chairman Waxman. I appreciate that comment, and I am sure 
you noticed that both the Democrats and Republicans on this 
committee were very clear that we want to work together, that 
we are all outraged by what we have seen happening.
    Mr. Arthur. Thank you, sir, and thank you, members of the 
committee.
    Chairman Waxman. Thank you. Ten minute break.
    [Recess.]
    Chairman Waxman. The committee will please come back to 
order.
    Our second panel consists of the relevant Federal agencies. 
Mr. Wayne Nastri is the Regional Administrator for Region 9 of 
the U.S. Environmental Protection Agency. Mr. Nastri will be 
accompanied by Mr. Keith Takata, Director of Region 9 Superfund 
Division, who will be available to help answer Members' 
questions.
    Dr. David Geiser is the Deputy Director of the Office of 
Legacy Management at the U.S. Department of Energy. Dr. Charles 
Miller is the Director of the Office of Federal and State 
Materials and Environmental Management Programs at the U.S. 
Nuclear Regulatory Commission. Dr. Miller will be accompanied 
by two colleagues at the NRC who will be available to help 
answer questions: Mr. Francis Cameron, the Assistant General 
Counsel for Rulemaking and Fuel Cycle, and Mr. William von 
Till, Branch Chief for Uranium Recovery Licensing.
    Mr. Robert McSwain is the Acting Director of Indian Health 
Service in the U.S. Department of Health and Human Services. 
Mr. McSwain is accompanied by two IHS experts who will be 
available to help answer questions, Rear Admiral Douglas G. 
Peter, M.D., Deputy Director, Chief Medical Officer for the 
Navajo Area, IHS, Gary Hartz, Director of the IHS Office of 
Environmental Health and Engineering. And Mr. Jerry Gidner is 
the Director of the Bureau of Indian Affairs in the U.S. 
Department of Interior.
    I thank you all for being here today. It is the policy of 
this committee to swear all witnesses, and those who may be 
answering questions, and take the oath. I would like everybody 
to please rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that all of the 
witnesses answered in the affirmative.
    Mr. Nastri, why don't we start with you? All of you should 
be aware that your prepared written statement will be in the 
record in its entirety. We would like to ask you, if you would, 
to please limit the oral presentation to around 5 minutes.

   STATEMENTS OF WAYNE NASTRI, REGIONAL ADMINISTRATOR, U.S. 
ENVIRONMENTAL PROTECTION AGENCY, REGION 9, ACCOMPANIED BY KEITH 
 TAKATA, DIRECTOR, REGION 9 SUPERFUND DIVISION; DAVID GEISER, 
  DEPUTY DIRECTOR, OFFICE OF LEGACY MANAGEMENT, DEPARTMENT OF 
  ENERGY; CHARLES L. MILLER, DIRECTOR, OFFICE OF FEDERAL AND 
  STATE MATERIALS AND ENVIRONMENTAL MANAGEMENT PROGRAMS, U.S. 
NUCLEAR REGULATORY COMMISSION, ACCOMPANIED BY FRANCIS CAMERON, 
  ASSISTANT GENERAL COUNSEL FOR RULEMAKING AND FUEL CYCLE AND 
WILLIAM VON TILL, BRANCH CHIEF FOR URANIUM RECOVERY LICENSING; 
  ROBERT G. MCSWAIN, ACTING DIRECTOR, INDIAN HEALTH SERVICE, 
  ACCOMPANIED BY REAR ADMIRAL DOUGLAS G. PETER, M.D., DEPUTY 
DIRECTOR, CHIEF MEDICAL OFFICER, NAVAJO AREA, IHS; GARY HARTZ, 
 DIRECTOR, IHS OFFICE OF ENVIRONMENTAL HEALTH AND ENGINEERING; 
  AND JERRY GIDNER, DIRECTOR, BUREAU OF INDIAN AFFAIRS, U.S. 
                     DEPARTMENT OF INTERIOR

                   STATEMENT OF WAYNE NASTRI

    Mr. Nastri. Thank you, Mr. Chairman, members of the 
esteemed committee. Mr. Chairman, as you note, our comments 
have been prepared and submitted for your review. I would just 
like to briefly summarize my thoughts on what we have heard 
thus far.
    First off, I want to thank you for your attention on this 
matter. I too am sickened and saddened by what we heard today. 
Working with tribal nations has been an area of extreme 
importance for us. We have done extreme amounts of work with 
the tribal operations committee, with the regional tribal 
operations council. I myself have visited Navajo lands twice 
and had a chance to see first-hand the beauty of the land and 
to understand some of the challenges--it is so large, it is so 
vast--some of the challenges on an Indian nation, particularly 
Navajo, where over 30 percent of Navajo residents don't have 
access to safe drinking water.
    We have many challenges on Navajo Nation. We have worked 
with Navajo Nation and Navajo Nation EPA for many years. The 
recent culmination of the inventory, I have brought a copy of 
the six documents that reflect the various chapters and regions 
where uranium mining is ongoing. We have identified this 
assessment through a number of different techniques, starting 
with helicopter surveys, followed up with additional historical 
research. This has really given us the foundation to evaluate 
the situation and to move forward.
    We heard today about many sources of drinking water where 
people drink. I want to point out that there are literally 
thousands of drinking water sources that are unregulated. The 
definition of regulation for us is are there 25 people or more 
drinking from it, are there 15 connections. But I can tell you, 
when I visited Navajo and Hopi, I was out in the plains on the 
arroyo, and here was a giant rock, and there was a hole in it. 
They said, that is our drinking water. They said, you can drink 
that. And I wouldn't drink that.
    But we have a lot of challenges that we try to get. One of 
the things that we have done is worked with Navajo Nation on 
outreach, trying to inform the communities about the hazards 
and to try to utilize its safe drinking water systems. We have 
worked to try to increase the amount of drinking water systems.
    Mr. Chairman, I know you talked about the issue of 
blending. The issue of blending is one that I am sure we can 
get into a little bit later. But it is an area that we actually 
engage quite a bit in. So I would be more than happy to answer 
your questions on that.
    I think in hindsight, there are certain actions, and what 
we heard today is that perhaps we have studied issues too long, 
and perhaps we needed to take action. With regard to some of 
the hogan issues, I am aware of two studies where we identified 
28 hogans directly from Region 9 and 33 additional hogans from 
our Office of Radiation and Indoor Assessment. Those hogans 
where there was an immediate impact on the initial 28 
assessments, we took action, we demolished those 2. Of the 33 
that I am also aware of that were conducted by what we call 
ORIA, our Office of Radiation Indoor Assessment, one of the 
things we try to do is, we respect the sovereignty of the 
Navajo Nation. We work with Navajo Nation and we say, here is 
the information that we have. How do you think we should 
proceed?
    It is easy to say we have developed an inventory and that 
we should take action. But there are a number of other factors 
that perhaps we don't appreciate, that we don't have the 
ability to understand the spirituality of the land. Those are 
issues that we need to work with Navajo Nation, so that we can 
understand and really develop a true prioritization that 
reflects both of our agencies.
    We are going to continue to work and take action where 
necessary. We have a standing offer with Navajo Nation that if 
we need to take removal action, we will do so. There are 
various actions right now that we are contemplating, but 
because of the challenge in the courts and the other systems, 
we are on hold. We intend to move quickly where we have that 
ability. We intend to utilize the authorities where we have the 
authority. And we intend to work more closely together, and I 
think that is a common commitment that we all share and we all 
recognize that we do need to do a better job.
    I don't think that when we work individually, whether it is 
here on Navajo Nation or in any area of the Nation, we get as 
much done as when we work in collaboration. I think by raising 
your attention and bringing this all together, you certainly 
have our commitment at EPA to address these issues in a 
collaborative approach, to address these issues in a manner 
that provides the hopefully efficient and speedier answer that 
we all need on these.
    With that, I will conclude my comments. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Nastri follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.081
    
    [GRAPHIC] [TIFF OMITTED] T5611.082
    
    [GRAPHIC] [TIFF OMITTED] T5611.083
    
    [GRAPHIC] [TIFF OMITTED] T5611.084
    
    Chairman Waxman. Thank you very much, Mr. Nastri.
    Mr. Geiser.

                   STATEMENT OF DAVID GEISER

    Mr. Geiser. Good afternoon, Mr. Chairman and distinguished 
members of the committee.
    The Uranium Mill Tailings Radiation Control Act of 1978 
required DOE to remediate four inactive uranium milling sites 
on the Navajo Nation. The four sites are referred to as Mexican 
Hat, Monument Valley, Shiprock and Tuba City sites. The 
remediation of these sites included the construction of three 
disposal cells and surface reclamation. Groundwater remediation 
continues at three of those sites.
    The surface reclamation program was completed in 1998, and 
the authority of DOE to conduct further surface cleanup expired 
at that time. The cost of the surface cleanup on the Navajo 
Nation, including the construction of three disposal cells, was 
$137 million. The groundwater program is ongoing today, at a 
cost of approximately $3 million per year, and has no statutory 
expiration date.
    The four Navajo Nation milling sites are being cleaned up 
under a cooperative agreement with the Navajo Nation that 
provides the opportunity for a participative decisionmaking 
process as required by the act. In addition, ongoing 
communication includes regular meetings and consultation on 
draft reports. This process ensures that DOE addresses the 
concerns of the Nation and that the Nation has full knowledge 
of current and planned activities related to the cleanup.
    Work at the Tuba City site is staffed by Navajo operators 
under contract with the DOE technical assistance contractor. 
DOE has worked with the Navajo Nation over the last 20 years. 
We currently have a positive working relationship. DOE provides 
funding of approximately $300,000 per year to the Navajo Nation 
so that their staff can participate. Staff from the Navajo 
Nation assists with site inspections, monitoring and 
maintenance activities. DOE holds quarterly meetings with the 
Navajo Nation to update the progress of site cleanup, address 
the nation's concerns and plan for technology transfer and 
education opportunities.
    DOE is currently remediating groundwater at the Tuba City, 
Monument Valley and Shiprock sites. The groundwater plumes are 
as a result of former uranium milling site ponds that contained 
large volumes of process water. I will briefly address 
groundwater remediation at each of these sites.
    The primary contaminant of concern at the Monument Valley 
site is nitrate. There is a pilot study underway that uses 
native plants to facilitate the reduction of the nitrate in 
groundwater at the site. The pilot study was approved under 
environmental assessment in cooperation with the Navajo Nation. 
The pilot project has been successful to date, and a deeper 
well was recently drilled to continue to provide water for 
irrigation. In addition, a water line was built by DOE for the 
few residents who might be impacted by the groundwater plume.
    The major contaminant of concern at the Shiprock site is 
uranium. There are two areas of groundwater contamination, the 
terrace and the floodplain. Both of these locations are 
difficult to remediate, because of very small volumes of 
groundwater. We have taken actions both for the terrace and the 
floodplain. We believe those are having positive results in 
helping us contain the groundwater contamination.
    The Tuba City site has a state-of-the-art treatment system 
to collect and treat contaminated groundwater. The system is 
effective enough that the treated groundwater can be re-
injected into the ground. Navajo operators have been hired to 
operate the groundwater treatment plant.
    In addition to conducting remedial action on the milling 
sites, DOE has also remediated contaminated soils surrounding 
the sites and properties in the vicinity of the sites as part 
of the vicinity property program. That was done between 1978 
and 1998. DOE investigated ten properties near the Tuba City 
milling site for possible inclusion in this program. Out of the 
10, 1 site was included, the other 9 did not exceed the 
standards, and therefore, no action was taken.
    Groundwater issues generally do not occur on vicinity 
properties, because large volumes of process water normally 
used for milling are not present at those vicinity property 
sites, and so generally do not impact groundwater quality. 
Reauthorization of UMTRCA surface remediation authority would 
be required to perform additional remediation of vicinity 
properties.
    I would be happy to answer any questions you may have on 
our activities.
    [The prepared statement of Mr. Geiser follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.085
    
    [GRAPHIC] [TIFF OMITTED] T5611.086
    
    [GRAPHIC] [TIFF OMITTED] T5611.087
    
    [GRAPHIC] [TIFF OMITTED] T5611.088
    
    [GRAPHIC] [TIFF OMITTED] T5611.089
    
    [GRAPHIC] [TIFF OMITTED] T5611.090
    
    [GRAPHIC] [TIFF OMITTED] T5611.091
    
    [GRAPHIC] [TIFF OMITTED] T5611.092
    
    Chairman Waxman. Thank you very much, Mr. Geiser.
    Dr. Miller.

                 STATEMENT OF CHARLES L. MILLER

    Mr. Miller. Mr. Chairman and members of the committee, it 
is a pleasure to be here before you today to discuss the U.S. 
Nuclear Regulatory Commission's regulatory role for uranium 
recovery facilities. I am also here to address any related 
concerns you may have regarding the health and environmental 
impact on the Navajo land from these NRC-regulated operations.
    I have submitted my written testimony for the record. With 
my allotted time this morning, I will summarize the key points.
    NRC regulates uranium recovery facilities but does not 
regulate uranium mining or abandoned uranium mine sites. There 
are only two primary uranium recovery process: conventional 
mills and in site leach facilities, which are referred to as 
ISLs. The conventional mill processes uranium ore, which is 
crushed and sent through an extraction operation to concentrate 
uranium and produce yellowcake. This process produces a waste 
product called mill tailings, which are a sandy ore residue.
    The ISL uranium extraction process wells are drilled into 
rock formations containing uranium ore. Water with oxygen and 
sodium bicarbonate added is injected into the uranium ore body 
so that it dissolves and can be extracted. The recovered 
uranium-bearing water is pumped to a processing plant which 
separates out the uranium and concentrates it.
    With the enactment of the Uranium Mill Tailings Radiation 
Control Act of 1978, referred to as UMTRCA, mill tailings 
became subject to NRC regulation. Title I of UMTRCA addresses 
uranium mill tailing sits that were abandoned as of 1978. Title 
II addresses uranium recovery facilities and mill tailing sites 
that were operating in 1978 and thereafter. The Title II sites 
are specifically licensed by NRC or an agreement State.
    Under Title I, the NRC is required to evaluate the 
Department of Energy's design and implementation of remedial 
action for the abandoned uranium mill tailings sites, and after 
remediation, to concur that those sites meet the standards set 
by the Environmental Protection Agency. Title I also requires 
NRC to evaluate and concur in DOE's remediation design and 
implementation for vicinity properties. Vicinity properties are 
lands in the areas surrounding the Title I sites that DOE has 
determined were contaminated with residual radioactive 
materials from the mill sites.
    UMTRCA requires that after remediation, Title I and Title 
II sites be under Government custodian care in perpetuity under 
NRC license. To implement this requirement for Title I, the NRC 
established in its regulations a general license authorizing 
DOE's custody and long-term care of the remediated sites. The 
general license becomes effective after NRC concurs with DOE 
that its site-specific remedial action has been completed, and 
after NRC accepts DOE's long-term surveillance plan for the 
site. After these actions, DOE is the perpetual custodian of 
the site under NRC's general license.
    Once a long-term surveillance plan has been approved, the 
DOE has the primary responsibility to ensure public health and 
safety at the site. However, NRC continues to have an oversight 
role. Four Title I sites are on Navajo lands, and have been 
articulated by my colleague from the Department of Energy. 
Title II of UMTRCA established the framework for NRC and 
agreement States to regulate mill tailings and other wastes at 
uranium and thorium mills licensed by the NRC at the time of 
UMTRCA's passage in 1978.
    Under Title II of UMTRCA, NRC regulates this material 
during mill operation and ensures that the site is properly 
closed prior to terminating the license. After license 
termination, the site is managed by the DOE or a State under a 
general license which imposes conditions for custody and long-
term care. Currently, there are no Title II sites on Navajo 
land. However, two Title II sites are adjacent to Navajo lands.
    The UNC site is currently being remediated at Crown Point 
and is not operated. NRC staff has met with representatives of 
Navajo EPA and Navajo Dine Policy Institute about future 
uranium recovery activities and recently held a meeting in 
Gallup, NM, where the Navajo interpreter translated the NRC 
presentation to assist many participants from the Navajo 
Nation. NRC intends to consult and interact with the Navajo 
Nation on any applications that may have implications on the 
Navajo Nation.
    Mr. Chairman and members of the committee, I hope that my 
testimony provides you with an understanding of the NRC's role 
with regard to these sites. I would be pleased to respond to 
any questions. Thank you.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.093
    
    [GRAPHIC] [TIFF OMITTED] T5611.094
    
    [GRAPHIC] [TIFF OMITTED] T5611.095
    
    [GRAPHIC] [TIFF OMITTED] T5611.096
    
    Chairman Waxman. Thank you, Dr. Miller.
    Mr. McSwain.

                 STATEMENT OF ROBERT G. MCSWAIN

    Mr. McSwain. Thank you, Mr. Chairman and members of the 
committee.
    Today I am pleased to have this opportunity to testify on 
what is known about health and the environmental impact of 
uranium mining on the Navajo Nation. I too was touched by the 
first panel, clearly, and as the people that Indian Health 
Service is extremely concerned about and serves.
    The IHS responsibility is for the delivery of health 
service to an estimated 1.9 million federally recognized 
American Indian and Alaska Natives through a system of IHS, 
tribal and urban programs operated across and basically in a 
government-to-government relationship in acts of Congress. The 
mission of Indian Health Service is to raise the physical, 
mental, social and spiritual health of American Indians to the 
highest level in partnership with tribes. It is the partnership 
with tribes that is very, very important at this hearing.
    The agency's goal is to assure that comprehensive, 
culturally acceptable personal and public health services are 
available and accessible to the service population. Our duty is 
to uphold the Federal Government's responsibility to promote 
healthy American Indian and Alaska Native people, communities 
and cultures, and to honor and protect the inherent sovereign 
rights of tribes.
    Three major pieces of legislation that we rely on 
throughout work is the Snyder Act of 1921, the Indian Health 
Care Improvement Act, which we are looking forward to 
reauthorization, certainly, and of course the Indian Self-
Determination and Education Assistance Acts, which enables 
tribes to assume management control of programs. In this 
particular instance, there are several programs on the Navajo 
that are in fact contracted with the Indian Health Service.
    The IHS has 12 area offices throughout the continental 
United States and Alaska. One of those offices is located in 
Window Rock, where the capital of the Navajo Nation is located. 
The Navajo Area Indian Health Service is responsibility for the 
delivery of health services to the American Indians in the 
States, in basically the Four Corners area, approximately the 
size of West Virginia, with a population density which is one-
tenth of the U.S. average of 85 people per square mile, an 
important distinction when we talk about population densities.
    Comprehensive health care is provided by the Navajo Area 
Indian Health Service and the Navajo Nation through in-patient 
and out-patient contract community health and environmental 
health programs through 6 hospitals, 10 health centers, 13 
health stations and community-based activities. In fiscal year 
2007, 1.2 million out-patient visits and 56,000 in-patient days 
were provided by the 4,500 Indian Health Service and tribal 
staff on the Navajo Nation.
    The IHS Sanitation Construction Program funded for the 
first time water and sewer service to 1,098 Navajo homes in 
fiscal year 2007. The Navajo Nation and local health 
corporations administer approximately $89 million in the annual 
NIHS funding to deliver and support health services to the 
Navajo people.
    Now a little bit about the health and the environmental 
impact. As you have heard by the experts, uranium is ubiquitous 
in the Earth's crust, but is especially concentrated in larger 
amounts in the southwest, in the Navajo Nation. An estimated 
3,000 to 5,000 Navajos worked in the uranium mines and the 
Navajo Nation reports the presence of over 1,300 abandoned 
mines on reservation land alone.
    In 2002, the Navajo Area Radiation Exposure Screening and 
Education Program [RESEP], began operations as one of the seven 
HHS RESEP grants in the United States. The Navajo Area Indian 
Health Service worked closely with the Navajo Nation Division 
of Health, Office of Navajo Uranium Workers, to implement the 
grant, which incidentally is funded through August 31, 2008. In 
1990 to 1991, the Indian Health Service OEHE program did in 
fact work with EPA on a survey, a radon survey for a number of 
private homes. The conclusion drawn was that in spite of the 
surface soils, rich in natural uranium, most Navajo-occupied 
homes do not have a problem with higher than recommended levels 
of radon, compared to the U.S. average.
    Since the passage of Public Law 86-121 in 1959, IHS has 
been constructing community water systems in Indian Country in 
accordance with EPA standards for safe drinking water. In the 
case of Navajo area, we actually turned these systems over to 
the Navajo Tribal Utility Authority to operate and maintain. 
Compliance with the Safe Drinking Water Act on Navajo 
Reservation has been the responsibility of the Navajo Nation 
since 2001.
    In conclusion, the Indian Health Service strives every day 
to be true to our mission to elevate the health status of 
eligible Indian people. We work in partnership with tribes and 
many other organizations and governments to provide preventive, 
curative, community and health care facilities and services 
throughout the country.
    Thank you for the opportunity to present testimony before 
the committee. I will be pleased to answer any questions.
    [The prepared statement of Mr. McSwain follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.097
    
    [GRAPHIC] [TIFF OMITTED] T5611.098
    
    [GRAPHIC] [TIFF OMITTED] T5611.099
    
    [GRAPHIC] [TIFF OMITTED] T5611.100
    
    [GRAPHIC] [TIFF OMITTED] T5611.101
    
    [GRAPHIC] [TIFF OMITTED] T5611.102
    
    Chairman Waxman. Thank you, Mr. McSwain.
    Mr. Gidner.

                   STATEMENT OF JERRY GIDNER

    Mr. Gidner. Mr. Chairman, members of the committee, thank 
you for having us here today to testify about this.
    I am Jerry Gidner, I am the Director of the Bureau of 
Indian Affairs. I would like to talk very briefly about our 
role and the role of the Department of Interior in the uranium 
issues at Navajo.
    Over the past several years, the Office of Surface Mining 
and the Department, in cooperation and with some assistance 
from the Bureau of Indian Affairs, under the authority of the 
Surface Mining Control and Reclamation Act, did close numerous 
abandoned mines on Navajo and remediated the physical safety 
hazards. BIA has been working for some time negotiating with 
the Navajo Nation, the Hopi Nation, EPA on what to do about the 
Tuba City landfill, which has been contaminated by 
radionucleides from the Tuba City site. What we understand is 
that over time, mine tailings were used in the Tuba City area, 
over time, some of them made their way into the Tuba City 
landfill. We are remediating that landfill at present.
    So our role in this remediation effort has been really very 
limited, basically to what I just said. Although we lack 
specific expertise in cleaning up uranium mines or uranium mill 
tailings, we do stand in a position of being ready to cooperate 
with the other Federal agencies, with the Navajo Nation and 
with anybody else that we need to to advance this issue.
    I would be happy to take your questions. Thank you.
    [The prepared statement of Mr. Gidner follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.103
    
    [GRAPHIC] [TIFF OMITTED] T5611.104
    
    Chairman Waxman. Thank you very much. I want to thank each 
of you for your testimony today.
    Mr. Nastri, I would like to ask about the Northeast 
Churchrock Mine site. When it was active, it was the largest 
underground uranium mine in the country. U.S. EPA went out and 
took radiation tests at this site. At the mine area, the radium 
levels were as high as 875 picocuries per gram. The EPA 
standard for deciding whether to clean up a site is 3.34 
picocuries per gram. So that is 270 times the EPA standard.
    Even in the back yards of two residences which are farther 
away from the mine, the radium levels were up to 30 picocuries 
per gram, that is 9 times the EPA standard. Those radiation 
levels pose an exceptionally high cancer risk. In fact, 
exposure to the radium levels at the mine would create an 
excess risk of cancer of 1 in 100, for example, for every 
hundred people exposed to this level of radium for a lifetime, 
one person will develop cancer that otherwise would not.
    In response to these exceptionally high levels of 
radiation, EPA removed the top 6 inches of soil from a few 
residential yards. Mr. Nastri, that didn't take care of the 
whole problem at the site, did it?
    Mr. Nastri. No, it did not.
    Chairman Waxman. Even after EPA's preliminary work, the 
mine is still radioactive, there is much more contaminated soil 
and the groundwater is contaminated. Has EPA taken any action 
so far to remediate the groundwater?
    Mr. Nastri. We have not taken action to remediate the 
groundwater. We are working with Navajo Nation and EPA to 
address the surface extent of the contamination. As you pointed 
out, we removed roughly 6,500 cubic yards. There is roughly 140 
acres or roughly 1.4 cubic yards that need to be addressed. 
Right now we are in the position of evaluating what are the 
alternatives. You heard earlier from the panel that they would 
like to see clean closure, they would like to see the material 
removed and stored in a separate facility. That is certainly 
one of the evaluations that we are looking at. We are looking 
at a whole range of evaluations. We will discuss these with 
Navajo Nation once the cost estimates have come together and 
hopefully, we will be able to address that situation.
    Chairman Waxman. According to the Navajo living in the 
area, EPA isn't currently doing any cleanup work at the site. 
You indicated you are doing studies to evaluate the costs. But 
I really don't understand the delay. Why isn't there any 
activity at the sites to remediate these problems?
    Mr. Nastri. Well, the immediate problem was the homes and 
the residence, as Director Etsitty talked about. That is where 
we took immediate action. In fact, when you sort of look at 
historically where do we take action, it is where there is that 
immediate threat, that immediate risk. Unfortunately, when you 
look a the site, yes, if you are on the site and you are 
exposed to the site, there are problems associated with your 
own health and your own risk.
    But if that area can be fenced off and if that area can 
then be assessed for how are we going to deal with it, if you 
look at nationwide, how do we address contaminated sites, there 
are a whole host of ways that we do that. One of the most 
common options is reduce the exposure, reduce the risk. People 
have talked earlier about, well, if you are going to have 
containment areas, you should have liners, you should have all 
these things that are necessary. I agree, and that is part of 
the evaluation that we are looking at. But you wouldn't 
necessarily put in a liner if you are going to simply excavate 
all that material and go away.
    But there are a number of complex issues that you have to 
look at. For instance, if we are going to try to remove all 
this material in a clean closure, how is that material going to 
be transported, and transported in such a way that it doesn't 
impact the roads, that it doesn't pose a health threat to 
anybody else along the way? Those are part of the things that 
we have to look at and evaluate.
    So to say that we are not doing anything, I would disagree 
with that. I would say that we are actively engaged in this 
area, that we are trying to find the right course of action, 
that we will continue to partner with them to do so.
    Chairman Waxman. Tell us what EPA needs in order to clean 
up this site. U.S. EPA and the United Nuclear Corp. need to 
pick up this pace. Ms. Hood, who testified, she and her 
neighbors deserve better than to be surrounded by radioactive 
contamination. What do you need?
    Mr. Nastri. That is a good question. Part of the challenge 
that we need is, I think, time. I know there has been a lot of 
time that has already been focused on this. But we need time to 
complete the engineering evaluation. It should not take years; 
it should not draw on. But we do need to finish that 
evaluation.
    The issue of resources within Navajo Nation and EPA, one of 
the things that we have really done in terms of working with 
them is to try to build their capacity. There was a request 
made earlier for, I believe, 20 FTE for Navajo Nation to 
address these issues. Certainly having the increased capacity 
at the State level I think would be very helpful. As you know, 
when we work throughout the Nation, we work with the States. 
The States have the capacity, part of what we have done is to 
try to build through the GAP program that capacity. The Navajo 
Nation also needs to implement in terms of authorization of 
their own Superfund, Navajo Nation Superfund program. That is 
an area that we have been working on.
    With any agency, the more resources we have I think the 
more that we can do. At this point, though, the big issue with 
the Northeast Churchrock site is making sure that engineering 
evaluation cost analysis is done. After that, I would be in a 
better position to come back to you, Mr. Chairman, and say, 
this is the selection chosen, this is what would be needed to 
implement the remedy.
    Chairman Waxman. When do you expect that will be done? What 
time can you give us?
    Mr. Nastri. One moment.
    Mr. Takata. My name is Keith Takata. We actually completed 
the evaluation and we briefed the Navajo Nation last month. 
Then we are actually going to have a written report this fall. 
And we would like to make a decision on the long-term cleanup 
early next year.
    Chairman Waxman. Thank you. My time is expired.
    Ms. McCollum.
    Ms. McCollum. Thank you.
    What standard are you cleaning up to, industrial standards?
    Mr. Nastri. Typically we would clean up to a designated 
land-use standard. In this particular----
    Ms. McCollum. I asked you what standard you were planning 
on cleaning up to?
    Mr. Nastri. I don't know the answer to that. My Superfund 
Division Director, Mr. Takata, may know.
    Mr. Takata. We are using a residential number to compare 
the analysis. We are comparing the options to the residence----
    Ms. McCollum. You are using residential for everything?
    Mr. Takata. Yes.
    Ms. McCollum. For everything?
    Mr. Takata. Well, to compare--yes.
    Ms. McCollum. In the Navajo Nation, we are aware that there 
isn't a lot of rain. So the drinking water for livestock and 
agriculture is going to come from wells and springs. The Navajo 
Nation's Abandoned Mine Lands program filled in most of the 
mines, and they couldn't protect against the groundwater 
contamination. They could only use the funds that they had to 
eliminate physical risks posed to open, abandoned mines.
    Because high levels of uranium in drinking water can cause 
kidney failure, groundwater contamination is a real concern. 
Mr. Nastri, the U.S. EPA conducted water samplings in 1988 and 
1999. You sampled 226 wells and springs. As I understand, the 
1998-1999 sampling wasn't comprehensive. There weren't multiple 
samples taken from the same sites over time. The sampling was 
not done any more than a snapshot in time, is that correct?
    Mr. Nastri. The Army Corps actually conducted the sampling. 
We had authorized them to do so. But the nature and the way you 
described it is correct, yes.
    Ms. McCollum. OK. Around 15 percent of the samples showed 
elevated levels of uranium. I know some of the uranium is 
naturally occurring. But some of these readings are very 
troubling. For example, samples were taken in the mountains 
above a school in Cove. One of those samples came back with a 
radium, 238 level of 414 picocuries per liter. That is over 20 
times the EPA standard.
    Now, the EPA standard, I am also going to assume, is the 
standard for a white, healthy male, not for children. That is 
what it usually is, correct? Am I correct?
    Mr. Nastri. I think risk looks across exposure at all ages 
and sex types, but I will stipulate to your assertion. Sure.
    Ms. McCollum. That is my understanding, whenever I have 
done anything to find out about EPA standards.
    There is a stream near a school that has a uranium, 238 at 
a reading of 71 picocuries per liter. That is over three times 
the EPA standard. Now, there are young children at the school 
every day. I want to know if the EPA has been back since 1999 
to retest this area.
    Mr. Nastri. Not to my knowledge, no.
    Ms. McCollum. Has the EPA done any groundwater remediation 
at any of the mine sites at the Navajo Nation?
    Mr. Nastri. Not to my knowledge.
    Ms. McCollum. Well, this is troubling, because 
comprehensive groundwater testing is essential. The U.S. EPA 
needs to do a comprehensive groundwater sampling over time to 
ensure that the watersheds near the abandoned mines aren't 
contaminated or in a danger of becoming contaminated. Now, we 
are going to be monitoring the EPA's progress, because the 
Navajo, like anyone else in this country are entitled to clean 
drinking water for themselves and for their livestock. I 
believe the EPA needs to do more than just one round of spotty 
sampling.
    The NRC is in the process of allowing a company, HRI, to 
start possibly looking at doing this water slurry type of 
extraction. This is very concerning and troubling to me. You 
don't even know currently what the status of the water is, and 
yet the NRC is looking at issuing mining licenses to even 
contaminate possibly more water. I point out to you that the 
U.S. Geological Survey does not share the same confidence that 
the NRC does in this type of mine extraction.
    Thank you, Mr. Chair.
    Chairman Waxman. Thank you, Ms. McCollum.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Nastri, I just have a few questions. I am really 
curious. To one of the chairman's questions, your answer was, 
we need time. I can understand that, but while time passes, Mr. 
Nastri, people get sick, people die, people develop kidney 
disease, children, babies are born with birth defects, bone 
cancer develops and gets worse, lung cancer, leukemia, while we 
wait.
    Mr. Nastri, I would like to ask you about the Navajo homes 
built with radioactive materials. Earlier we hard that the 
Navajo Nation, EPA has a list of 80 to 90 homes they suspect 
may have elevated levels of radon. In other words, they believe 
these homes may be radioactive. They aren't sure how many of 
these homes are currently occupied.
    Let me ask you, for the record, the Navajo Nation EPA says 
that it provided a list of these homes to U.S. EPA in 2001. Is 
that true, and has U.S. EPA had a list of these homes for the 
past 6 years?
    Mr. Nastri. I am not aware of the list that was 
encompassing 80 to 90 homes. I am aware of 2 lists, one 
encompassing 28 homes, 2 of which we took immediate action for 
the removal; another list that was developed by our Office of 
Radiation Indoor Assessment that was 33 homes. I understand 
there is some anecdotal information about other homes. But that 
information has never been provided to us in a written format 
list that I am aware of.
    Mr. Cummings. So you are saying you know of at least 50, if 
I got your numbers right, 50 some?
    Mr. Nastri. Correct.
    Mr. Cummings. You said 20 some and 30 some. And so what has 
been done with regard to those other homes? You said you did 
some removal for two. But what happened to the other 40 
something?
    Mr. Nastri. Of the 2 lists, the 28 and the 2 were done in 
the early 1990's, I believe. The two that were destroyed were 
the ones that posed risk to the residents that was above 
acceptable limits. The 33, that was done separately by our 
Office of Radiation Indoor Assessment. We actually are working 
with Navajo Nation to get that list so that we can address and 
identify what needs to be done.
    So we just received that list within, I believe, the last 
year or so.
    Mr. Takata. In 2006.
    Mr. Cummings. How many were on that list?
    Mr. Takata. Thirty-three.
    Mr. Cummings. But you had a list, you got that list last 
year, and the other list, when did you get that? You talked 
about two lists?
    Mr. Takata. In 2006. Would you like me to clarify those?
    Mr. Cummings. Yes, please.
    Mr. Takata. OK, so there was one list----
    Mr. Cummings. Can you come to the mic and tell me who you 
are?
    Mr. Takata. I am Keith Takata and I work for Mr. Nastri.
    Mr. Cummings. You play a major role here.
    Mr. Nastri. Mr. Takata is my Superfund Division Director 
and is responsible for a lot of the work that goes on in the 
Navajo Nation.
    Mr. Cummings. Wonderful. Welcome.
    Mr. Takata. Sir, let me try to clarify the list. There was 
a list of 28, that was a list that EPA developed. Out of that 
list of 28, there were 2 homes that had high levels. And we 
destroyed those homes and provided new homes. So that----
    Mr. Cummings. So you all went out, when you looked at the 
28, you examined all of them, is that right?
    Mr. Takata. Yes.
    Mr. Cummings. And found that 26 of them did not have levels 
up to what you consider dangerous, is that right?
    Mr. Takata. Right, and then the two did, and we destroyed 
those two.
    Mr. Cummings. OK.
    Mr. Takata. Then there is a separate list of 33 that was 
done in a study. I am going to clarify the dates here. The 
study started in 2001 and ended in 2006. We got the report in 
2006. That is the list of 33. Those are suspected homes with 
levels of contamination. But they haven't actually been--what 
we used was field monitoring equipment to assess them. So the 
next step is the Navajo Nation has agreed to go out and sample 
those homes and we have let them know that if any of those 
homes have high levels, that we will go out and clean them up.
    Mr. Cummings. Do we know whether people are living in those 
homes?
    Mr. Takata. No, actually, that was one of the things that 
needs to be done when the Navajo Nation goes to each home, they 
need to figure out what it is being used, what the current use 
is, and what the levels are.
    Mr. Cummings. It is interesting, I was listening to the 
chairman talk about they went through so many changes in 
getting that little bit of dirt that they had here a little bit 
earlier, and everybody was all upset and all concerned, and the 
Capitol Police and what have you. I am just wondering, we are 
waiting for a study to be conducted, the study is taking from 
2001 to 2006, I think you said. Hello?
    Mr. Nastri. Yes.
    Mr. Cummings. 2006. What happens to those folks, let's 
assume there are people living there. What happens to them 
during that time? I am just curious as to whether you would 
have your families in that environment for 5 or 6 years?
    Mr. Nastri. I think there are a number of challenges that 
we have to recognize. One of the things that we actually heard 
earlier was the tie to the land. People do not necessarily want 
to move out from their homes. So even though we have provided 
homes, that doesn't necessarily mean that we can get somebody 
to move out. That is why it is so important to work with Navajo 
Nation, so that we can try to get these actions taken.
    Mr. Cummings. But right now, as I close, Mr. Chairman, what 
you are telling me is you don't even know whether people even 
live in the houses?
    Mr. Nastri. That is correct.
    Mr. Cummings. What I am saying is that the diseases that I 
just stated, kidney, birth defects, bone cancer, lung cancer, 
leukemia, I mean, these people could be suffering from these 
ailments. But you don't even know whether they're in the 
houses. I mean, we do pay you, don't we?
    Mr. Nastri. You do pay us, and----
    Mr. Cummings. Yes, so in other words, you are paid by the 
U.S. Government?
    Mr. Nastri. Yes, I agree to that, we are paid by the U.S. 
Government. We are paid to work with Navajo Nation. That is 
what we are doing. We are giving them funding so they can build 
their capacity and infrastructure. We are trying to address the 
very concerns that you asked.
    Mr. Cummings. I see my time is up.
    Chairman Waxman. Just on this question of time, in 1975, 
that is when I came to Congress, over 30 years ago, Joseph M. 
Hans, Jr., an EPA radiation expert, was sent to inspect an 
abandoned uranium processing plant in Cane Valley, on Navajo 
territory, near the Arizona-Utah line. To Hans' dismay, at 
least 17 of the 37 homes tested contained radioactive ore or 
tailings. But they didn't have enough money, they didn't ask 
for more time, they just didn't have enough money, so nothing 
was done.
    I guess I am still a little perplexed about whether you 
really need time, and that is all you need. Because in 1975, 
over 30 years ago, EPA knew about the homes and didn't do 
anything about it.
    Mr. Nastri. Thank you, Mr. Chairman. When I said more time, 
I was thinking about the Northeast Churchrock site. Here is my 
concern, that if we move too quickly on the remediation of this 
site, it is possible that we don't do a good enough job. Either 
we haven't transported everything or we haven't built a proper 
containment. And for us to move forward, Mr. Takata talked 
about moving forward in the spring of 2008, I believe the 
correct time that we had looked for in an answer was March 
2008, then have May 2008 to go final, having gone through the 
public participation process.
    That was the time that I referred to, because I am very 
cognizant that if we move too fast, now that we have developed 
all this information, that we fail at the end. I just want to 
make sure that we do this right.
    Chairman Waxman. So you are talking about only one specific 
area?
    Mr. Nastri. That is correct. I was only speaking of the 
Northeast Churchrock mill site.
    Chairman Waxman. But in other areas, like this one I cited, 
it was 1975 when they found 17 of 37 homes that were 
radioactive and that were a problem. What happened there? Do 
you know?
    Mr. Nastri. I don't know what happened in 1975. But I do 
know, and Mr. Takata can reiterate, we have a standing offer to 
the Navajo Nation that if they are aware of activities or a 
situation that warrants immediate action, we can use our 
authorities, we can do it on a site by site, specific basis, 
assess that and take appropriate action. And we have done so 
and will continue to do so.
    Chairman Waxman. Well, all I can say is, EPA has been aware 
for 32 years of this houses. This man named Hans was an EPA 
employee. He found the problem. And you are waiting for the 
Navajos to tell you what to do? That doesn't sound right to me.
    Mr. Nastri. I agree with your assertion. It doesn't sound 
right. We have identified those sites, we took action where we 
thought that there was risk. If there are other sites that we 
are not aware of where there is risk that the Navajo Nation is 
aware of, those are the sites that we will take action on.
    Chairman Waxman. Well, Hans said he wrote to EPA 
headquarters in Washington, DC, recommending that the agency 
clean up the most contaminated homes or relocate the occupants. 
He said, ``You have two risks, gamma radiation, and you have 
radon.'' It wasn't acceptable, he said. And his higher-ups said 
no. That is the response he got.
    He went on to say, ``I still felt uncomfortable,'' so he 
urged the Indian Health Service to act. And the response from 
the Indian Health Service was the same. ``Finally, we got the 
message,'' said Hans, now retired and living in Las Vegas. ``We 
didn't have the money to go decontaminating sites.'' And still 
he wanted to warn homeowners. Most spoke Navajo and were 
uncomfortable with English, so Hans went back with a 
translator. And all he could say is, you have a problem. He 
could offer no hope that the Government could fix it.
    I am reading from the L.A. Times article by Ms. Pasternak. 
It is a superb series. But this is really shocking, when I 
hear, you need more time, and this was 32 years ago.
    I am going to have Mr. Udall ask his questions, and we are 
going to have another round.
    Mr. Udall. Thank you, Mr. Chairman.
    Directed to Mr. Gidner here, you are the head of the BIA, 
right?
    Mr. Gidner. Yes.
    Mr. Udall. You are very familiar with the trust 
responsibility that the Federal Government has to tribes, I am 
sure?
    Mr. Gidner. Yes, sir.
    Mr. Udall. As you know, the trust responsibility is 
something that has existed for a very, very long period of 
time. The BIA is at the front of that, of looking out for the 
tribes. The trust responsibility was built around the idea that 
there were language difficulties and cultural difficulties, and 
that the Federal Government was going to be out there looking 
out for the tribes.
    When you sit here today and listen to this first panel and 
then hear this panel talk, how do you feel about the 
fulfillment of the trust responsibility? Do you think that you 
have fulfilled the trust responsibility, the Federal 
Government? How do you feel about that?
    Mr. Gidner. I think that is hard to say.
    Mr. Udall. Hard to say?
    Mr. Gidner. Well, sir, I think----
    Mr. Udall. I would hope you would be outraged. I would hope 
that you would stand up and say, we are supposed to be 
protecting these people. We are supposed to be out there on the 
line. Have you asked, have you asked any of these agencies to 
put money in their budget? Have you asked them to put money in 
their budget to remedy these contamination and cleanup 
problems, and radioactive homes, as the chairman has talked 
about? Have you asked them to do that?
    Mr. Gidner. No.
    Mr. Udall. You know what I can't believe here, tell me if 
this is really true. This just absolutely amazes me. The BIA 
staff told the committee staff, our staff here, that you have 
no responsibility with respect to any aspect of this issue. 
That is the position of your agency? This is the agency on the 
front line for trust responsibility. Is that the position of 
the BIA?
    Mr. Gidner. I would disagree with that broad of a 
statement. But I would say with regards to this issue, I think 
you need to travel back in time. This started happening during 
the development of the nuclear weapons program, continued 
through the cold war. I don't know what BIA's role or 
position----
    Mr. Udall. Wasn't there a trust responsibility back during 
the nuclear weapons program?
    Mr. Gidner. Yes----
    Mr. Udall. I thought the trust responsibility went back to 
the treaty era.
    Mr. Gidner. Oh, it certainly does.
    Mr. Udall. We heard Mr. Arthur say the treaty with the 
Navajo Nation was in 1868.
    Mr. Gidner. Absolutely.
    Mr. Udall. So we have had 150 years there where there is a 
trust responsibility.
    Mr. Gidner. And the trust----
    Mr. Udall. Have you all fulfilled it? Do you feel you have 
fulfilled the trust responsibility to the Navajo Tribe with 
what you have heard today?
    Mr. Gidner. I will return to my previous answer, and I 
would like to explain, if I could. I think it depends. Because 
the trust responsibility is not the responsibility only of the 
BIA, it is the responsibility of the entire Federal Government. 
And if you look at that----
    Mr. Udall. You folks are on the line, though.
    Mr. Gidner. Oh, absolutely.
    Mr. Udall. You have folks out there on the Navajo 
Reservation.
    Mr. Gidner. Absolutely.
    Mr. Udall. A lot of these agencies, they don't have people 
there on the ground.
    Mr. Gidner. That is true.
    Mr. Udall. So I interpret the trust responsibility to be 
your folks on the ground. They contact these--they say, people 
are living out here in radioactive homes. There is serious 
contamination. What is your agency doing about budget issues? 
What are you doing to aggressively take care of this?
    Mr. Gidner. Well----
    Mr. Udall. Where was the BIA?
    Mr. Gidner. I will get to that in just a second, if I 
could. When this began happening, we have to remember, the 
United States was gearing up its nuclear weapons program. I 
just think we should all wonder about that. What would have 
happened if BIA at that time had said, sorry, you can't mine 
uranium from the Navajo Nation. I think we would still be 
having this hearing today, with all due respect, Congressman. I 
don't think BIA raising the trust responsibility argument would 
have gotten us very far in that context.
    Mr. Udall. Well, you know what BIA could have done, sir? Do 
you know what the BIA could have done? My father has been 
involved in this issue for 35 years with a lawsuit, and 
eventually got a law passed by Congress, because those uranium 
miners were treated as guinea pigs. They were left, the Federal 
Government knew they were working in mines that were dangerous. 
They knew they were going to get cancer.
    And guess what? The entire Federal Government is just like 
all of you, sitting there, oh, going along merrily. And they 
let this tragedy happen. And if the BIA had spoken up then and 
said, we have innocent people that are working in uranium mines 
and they are going, based on the scientific evidence and based 
on the European experience where there were specific causes of 
lung cancer, you are going to have people dying. If one agency 
had stood up and said that, maybe, maybe we would have 
prevented all of this tragedy, and all of these folks here who 
have lost loved ones and breadwinners and it has put them 
further into poverty. Maybe that would have been prevented.
    But your version of the trust responsibility is what? I 
don't understand it. What is your version of the trust 
responsibility? Why haven't you been out there saying something 
about this?
    Mr. Gidner. Well, I think----
    Mr. Udall. I give up, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Udall.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I want to reflect my 
strong agreement with what Mr. Udall has just spoken to. He 
only gave up because he was out of time and the chairman 
generously offered to give him more. I know he hasn't given up.
    I have to say, I wonder if this would have been New York 
City where they had found the uranium or St. Paul, MN, or Los 
Angeles, right in the heart of a vibrant community, where 
people can often more easily rise up against the powers that 
be, versus the nuclear weapons program, I don't think the 
outcome would have been the same as it was on the Navajo 
Reservation, where we frequently see people who are made to 
feel powerless against this Government.
    And the Native American community certainly reflects 
communities, as well as other minority communities, which have 
been powerless when our Government or industry has decided, 
there is something there that they want or that there is a 
place there that would be a good place to bury waste, or to 
plant an incinerator. We often find minority groups not being 
able to have the resources available for them to fight back, 
and the Bureau of Indian Affairs certainly should have been one 
of those resources for them.
    Mr. Geiser, in one of the five----
    Chairman Waxman. Before you leave that point--I will give 
you extra time--I talked about this Mr. Hans, Joseph Hans from 
EPA, went out 32 years ago and found all these homes and 
couldn't get EPA to act. He was going to the Department of 
Energy, trying to get them to act. They just said, no, you have 
a problem there, but we don't have the resources.
    But 200 miles away from the reservation, in Grand Junction, 
CO, residents faced the very same problem. And there, the 
Government moved with urgency to eliminate the health risks 
posed to homes, schools and churches from these same, the 
failings from the Climax Uranium Co. What happened was that the 
community got together, they went to the State, they demanded 
action. They happened to have a very powerful representative, 
Democrat Wayne Aspenall, who was chairman of the House Interior 
Committee. So they got a thorough cleanup, which ultimately 
cost more than $500 million. The Navajos have not had a 
community that is powerful, they haven't had a champion like 
Aspenall, positioned as he was, to get this money. And there 
are widely scattered settlements, people only have a vague idea 
of radiation problems.
    That illustrates your point. It isn't just theoretical, it 
is very real. I thank you, and I will give you extra time.
    Ms. McCollum. Thank you, Mr. Chair.
    And to your point about time, the Churchrock spill which 
you were talking about earlier with our panel happened on July 
16, 1979. And they are just getting around to cleaning it up in 
2007. So to your point, Mr. Chair, I even think in this 
instance we should be just outraged at how long all this is 
taking.
    Mr. Geiser, I want to go back. One of the five former 
uranium mills in the Navajo Nation is the Tuba City mill. Going 
back to cleaning these things up. Now, we have heard the 
surface cleanup at that site is completed and that the DOE's 
effort to clean up the contamination groundwater is ongoing. 
However, we also heard from the first panel that there are 
properties in the vicinity of the Tuba City mill site that are 
still contaminated. There is a dump site where radioactive 
material from the mill was apparently buried.
    When DOE cleaned up the mill site, this material was not 
exposed. However, over time erosion has exposed this 
radioactive waste site as a dump site. So we have a problem 
there.
    Earlier, the Navajo EPA brought in a sample of radioactive 
dirt and the sample came from the vicinity. From its gamma 
radiation readings, we know that this is very dangerous. It is 
right across the street, going to my whole point about how are 
we cleaning this up, residential or industrial, this site is 
right across the street from where Ray Manygoats lives.
    So, Mr. Geiser, does the DOE agree that this radioactive 
material in this vicinity probably came from the Tuba City 
mill?
    Mr. Geiser. From the information we have, yes, it probably 
did.
    Ms. McCollum. OK. The DOE hasn't been able to clean up this 
property because your statutory authorization to conduct 
surface remediation expired in 1998. Have you asked Congress to 
extend this authority? And if you did, could the DOE clean up 
the site?
    Mr. Geiser. The authority was extended several times to get 
to 1998. We have not asked since then to reauthorize it. We 
would have the capability to remediate that site. It is 
directly across from the Tuba City disposal cell. And actually, 
the one vicinity property that we did clean up was the quarters 
for the people who were doing the milling operation, which is 
actually between the site that we are talking about, the Rare 
Metals site and the disposal cell. I think you mentioned it was 
when we did the survey of that area, some time between 1978 and 
1998, the radioactive material was not exposed at that point. 
So we believe, through weather action, that came to the 
surface.
    Ms. McCollum. Can you tell me what that site was cleaned up 
to, residential?
    Mr. Geiser. That site was, the Rare Metals site was not 
cleaned up, because at the time, we did not find any 
radioactive contamination.
    Ms. McCollum. That is interesting. Now that you are aware 
of it, what are you going to do? I mean, when you go back to 
the office, don't you, you know, what do you think the DOE 
should do?
    Mr. Geiser. Well, the Department is prepared to work with 
the Congress and should the Congress decide to reauthorize us 
to do this type of work, we would be prepared to do that.
    Ms. McCollum. And the administration, you would suggest 
that the administration put forward a request in order to have 
the funding to do it? I mean, the authorization is great. But 
as Mr. Udall and I sit on the Appropriations Committee, we know 
the money to be able to do the work is just as important.
    Mr. Geiser. If we had found the contamination, as described 
in the EPA report, back when the vicinity properties program 
was being conducted, we would have cleaned up that 
contamination.
    Ms. McCollum. So now that you know about it, the 
contamination should be cleaned?
    Mr. Geiser. Yes.
    Ms. McCollum. We will be looking for it in the 
appropriations process. Thank you, Mr. Chair.
    Chairman Waxman. Thank you, Ms. McCollum.
    Mr. Davis.
    Mr. Davis of Virginia. Who is responsible for the cleanup 
of the uranium mines and mills that were left behind?
    Mr. Geiser. The uranium mill tailings, the four inactive 
sites, when UMTRCA was enacted, that was the Department of 
Energy's responsibility.
    Mr. Davis of Virginia. How about the 1,200 mines?
    Mr. Geiser. That was not the Department of Energy's 
responsibility.
    Mr. Davis of Virginia. Who is responsible for that? Any 
idea? It is not Energy?
    Mr. Geiser. Right. Currently, the----
    Mr. Davis of Virginia. The Navajos didn't cause it, did 
they?
    Mr. Geiser. Currently, the Environmental Protection Agency 
is working with the Navajo Nation on that.
    Mr. Davis of Virginia. OK. This should be clear as possible 
and ensure the job is done quickly and efficiently, don't you 
think?
    Mr. Geiser. Yes, sir.
    Mr. Davis of Virginia. What kinds of health studies have 
been conducted on the Navajo Nation to determine the impact of 
uranium mines on the public health in the area?
    Mr. Geiser. Sir, that is not my area of expertise. I would 
defer to the Indian Health Service or EPA.
    Mr. Davis of Virginia. Well, let me ask Indian Health 
Service. Anybody?
    Mr. McSwain. There have certainly been a couple of studies 
done, but they're sort of grants that are looking at specific 
areas of radon, for example, with RECEP. There's currently 
another study going on that was referenced earlier, which is 
the Southeast Institute that is actually looking at kidney 
disease related to issues, but not in terms of any large-scale 
specific----
    Mr. Davis of Virginia. Outside of the panel being assembled 
here today, do you all ever get around the table and talk about 
this and say, who does what and how might we resolve this? How 
many times have you all been together to discuss this, Mr. 
McSwain?
    Mr. McSwain. This is the first time. I can assure you, I 
have taken names and cards.
    Mr. Davis of Virginia. Well, Henry, you have done something 
good today. [Laughter.]
    Mr. Gidner, what specific role does the Bureau of Indian 
Affairs assume on a routine basis, and what have you done in 
this specific process?
    Mr. Gidner. On this specific process, the Bureau of Indian 
Affairs has worked with the Office of Surface Mining on sealing 
abandoned mines and is currently remediating the Tuba City 
landfill.
    Mr. Davis of Virginia. I will tell you what I would like to 
see. This is something where everybody has a piece of it. But 
with a name like Bureau of Indian Affairs, putting everybody 
together, even if it is not maybe your specific jurisdiction, 
just bringing everybody to the table, to see if we can get some 
resolution of this, that would be my view. Do you think you 
might be able to do that?
    Mr. Gidner. We could do that. We will cooperate with the 
other agencies and Navajo Nation EPA.
    Mr. Davis of Virginia. I have a feeling if you don't do it, 
you will be back here. Mr. Waxman will do it for you.
    Thank you. Thank you very much.
    Chairman Waxman. Thank you. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    It is so easy to have a conspiracy of silence and do 
nothingness. Are any of you outraged by what you heard from the 
first panel? I am just curious. Anybody? You are?
    Mr. Gidner. Yes, sir, and I am outraged by the Tar Creek 
Superfund site and by 85 percent unemployment on the Oglala 
Sioux. Indian Country is hurting, sir.
    Mr. Cummings. Did you know about this before you came here 
today?
    Mr. Gidner. A little bit about it, yes.
    Mr. Cummings. And did you do anything about it? Did you 
scream? Did you say, there is something wrong with this 
picture?
    Mr. Gidner. Not about the uranium, specifically, no.
    Mr. Cummings. Anybody else outraged? Yes, sir?
    Mr. Nastri. Yes, I am outraged.
    Mr. Cummings. And did you learn something new today that 
outraged you, or were you outraged before you got here?
    Mr. Nastri. I think I had a fairly good sense of the 
challenges that we face. I certainly asked my staff a lot of 
very critical questions about where things were. In fact, I had 
a chance to speak with Navajo Nation EPA director, Steve 
Etsitty----
    Mr. Cummings. And where was that?
    Mr. Nastri. A week and a half or so ago.
    Mr. Cummings. Did that conversation outrage you?
    Mr. Nastri. No. It did not outrage you. The question that I 
asked the Navajo Nation EPA director was, I understand we are 
going to be testifying. Tell me, what are the things that we 
are doing, that we are not doing, where is there a problem from 
your perspective. I have been regional administrator for 
several years. No one from Navajo Nation has come to me and 
said, this is an issue that you need to take care of right 
away.
    So when I asked the director, he said, Wayne, you know, in 
the past, we had an issue. We felt that the studies were taking 
too long, and it was very difficult for us to get action. But 
that has changed. Certainly in the last few years, we have had 
that type of action. But I think the frustration that passed 
out with the length of time, with the perception that perhaps 
we were being too research-oriented and not action-oriented.
    So one of the things that we have said, and that is why I 
made the commitment today, sir, is that we have made a standing 
offer that we will use our removal authority, if there are 
issues that they raise to our attention that we can say, this 
is an issue that we can address under CERCLA, then we will do 
so.
    Mr. Cummings. Anybody else? Yes, sir?
    Mr. McSwain. You asked if we were outraged. Certainly when 
I got here, I wasn't as outraged as I was before. The reason 
for it is, I think Mr. Udall talked about feet on the ground. 
The fact is, we have a lot of health care providers out there 
on the ground who are attempting to provide the best possible 
health care possible. The fact is, people keep coming in and 
they are sick and they are ill.
    Mr. Cummings. And some of them are dying.
    Mr. McSwain. Yes. And we can't stop the reason. That is not 
our role. Clearly, we work diligently on the water side of it, 
within the scope of our authority. But again, not very 
successful, excepting the fact that we are doing a lot of 
dancing out there trying to get around these leavings.
    Mr. Cummings. I often say, this is the United States of 
America, we can do better. I see my time is running out, but I 
need to refer back to a November 19, 2006 L.A. Times article: 
``In 1981, 10 of the reservation's local governments called 
chapters asked the tribe to inspect houses for signs of uranium 
contamination. But we had our old nemesis, money, TOE said. His 
appeals to the Federal agencies were met with a real lack of 
interest. The prevailing attitude was expressed in a December, 
1986 memo by Charles Rue, an Indian Health Service official 
stationed in the Navajo region. Ticking off mining-related 
hazards, he wrote `Radon in homes is another significant but 
resource-consuming endeavor.' The tribe had surveyed 96 homes 
and found 37 with radon levels above the EPA's safety 
threshold. He wrote to his superiors. Many areas near abandoned 
mines have yet to be tested, included Monument Valley, where 
the Hollidays live.''
    But this is the piece that got me, this is the piece. ``But 
he recommended against getting involved because of the cost.'' 
The Health Service, he wrote, ``should only monitor tribal 
efforts.'' In other words, he was saying, they should only 
monitor the results of the mess that is there, they should only 
monitor the lung disease. They should only monitor the 
leukemia. They should only monitor the bone cancer. They should 
only monitor the birth defects. They should only monitor the 
kidney disease.
    These are human beings. They share this land with us. It is 
just not right. I would suggest that if we cannot have more 
empathy for our fellow human beings, maybe somebody needs to 
replace you guys and let us have some other people who are 
outraged by all of this. I can understand Mr. Udall's concern. 
At some point, somebody's got to say, just holler and say, no, 
this is not, we are not going to have it this way.
    We can say time, let's wait, let's wait, let's wait, let's 
wait, and people will die. But if it were our families, if it 
were our children, we would go crazy.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Cummings.
    Mr. Udall.
    Mr. Udall. Thank you, Chairman Waxman.
    When I said I give up, I was giving up on getting what I 
thought would be an answer, some kind of answer that would give 
me a little bit of solace, and the other members of this panel 
I think were showing some outrage. Mr. Gidner, do you, 
reflecting on this, the trust responsibility, do you have a 
sense that you want to come out of this and really get this 
situation changed and get some resources committed to this? Is 
something driving you to do that out of this hearing?
    Mr. Gidner. I am in this business, sir, to help Indian 
people. I am a Sioux St. Marie Chippewa myself. That is why I 
am here. We deal with these issues every single day. Yes, I am 
outraged. BIA has less than $10 million in its environmental 
budget. We do not have specific expertise in cleaning up 
uranium. We clearly cannot be the lead for money or technical 
expertise on this.
    Now, as Congressman Davis suggested, could we convene the 
agencies and the Navajo Nation and work together? Absolutely. 
And I would be glad to do that.
    Mr. Udall. Good. I hope, and I hear the chairman saying he 
is going to continue to be involved in this, and I hope that we 
will be able to see some real progress.
    Mr. Nastri, you said, when asked a question about doing 
something about it, you said, no one has come to you. That 
seemed to suggest to me that it was their fault, because they 
hadn't come to you, the EPA. It seems to me, when the EPA is in 
a relationship with a tribe, which is starting a very new 
environmental enterprise, trying to develop the technical 
expertise of your agency, which has been going now for 30 or 
more years, that you have a responsibility to try to monitor 
what they are doing and keep an eye on what is happening on the 
ground.
    So I hope that the, that no one has come to me, that isn't 
suggesting there is some fault on the part of the Navajo Nation 
and its EPA and Mr. Etsitty that was here earlier from the 
Navajo EPA.
    Mr. Nastri. I absolutely agree with you, and I certainly 
didn't intend to convey that. As regional administrator, I deal 
with 147 tribes, I deal with four States, I deal with all the 
U.S. territories and the Pacific. By nature of the beast, so to 
speak, issues that are more critical, that are high 
significance, tend to rise to my level.
    Now, when I do go out and visit tribes, when I go and visit 
the States, I am always asking the question, what are the 
issues that are outstanding, that we need to be aware of that 
perhaps I am not aware of? We always go in with a list of 
issues that we think are critical. Are there more things that 
we can be doing, are there things that we should be doing 
working with other agencies? Absolutely. We certainly deal with 
that.
    Now, was I apprised of the situation? Sure. The question 
that I asked my staff and others that we work with, are we on 
the right track, is there something that we should be doing 
differently. And that is oftentimes, frankly, in the type of 
work that we do, is one of the biggest challenges that I have. 
Oftentimes, people want to try to address a solution at a lower 
level, and they sort of view it if they raise it, that perhaps 
that hasn't been reflective of success.
    So oftentimes, we do try to draw out those issues and we 
try to seek those. If I don't hear those things, a lot of times 
I will make the assumption, OK, fine, things are going well. 
Because believe me, when things aren't going well, I hear it.
    So when I learned of this hearing, my first question was, 
what is going on here? We have been to Navajo Nation twice, and 
I have certainly seen some of the lands, but I was always 
assured that, we are working on those issues. To hear the 
stories that we heard today, it absolutely has to pull at every 
one of us. We should all be highly motivated to do something. 
And I am glad to hear that BIA is going to move something, 
because if they weren't, we would have asked everybody. In 
fact, we all introduced ourselves as we met. So absolutely, we 
are going to move forward and do what needs to be done.
    Mr. Udall. Thank you. Thank you, Mr. Chairman.
    Chairman Waxman. I just want to get one point nailed down. 
Mr. McSwain, we heard about this blending of drinking water.
    Mr. McSwain. Yes.
    Chairman Waxman. That doesn't make sense to me. We have 
drinking water that is contaminated and is being blended with 
less contaminated water to Navajos living near Cove. Do you 
know how many Navajos drink this blended whatever every day? 
What was the rationale for mixing less contaminated water with 
contaminated water for human consumption? Why not supply the 
community with less contaminated water? And is this well the 
only site in which IHS is blending contaminated well water with 
less contaminated water to provide drinking water for Navajos?
    Mr. McSwain. First of all, Mr. Chairman, we do a fair 
amount of blending, and the reason for it simply is, that as 
any contaminants are that are found in the water, we will go 
through a process. The process summarily is we will do 
filtering to reduce the contaminant level. If that is not 
possible, then we will find a good water source and mix it with 
the contaminated site to get the parts per billion down. We are 
guided by certainly EPA's guidelines on Safe Water Act rules.
    If that is not successful, we completely replace the 
system.
    Chairman Waxman. Why wouldn't you just replace the system? 
We are talking about contaminated water. Do you know all the 
studies and possibilities of health hazards from water that 
still is contaminated?
    Mr. McSwain. Part of it is the fact that, as you well know, 
Indian Country is not exactly near-in. They are in very 
isolated areas of the Nation. That is the process we have been 
using to in fact provide potable water.
    Chairman Waxman. Well, it sounds nonsensical to me. We will 
pursue it further.
    I want to go over some of the things that I think we need 
to have done before we end this hearing, before you leave. I 
think the Federal Government has a responsibility, but that is 
not just you, it is us, too. The Congress has a responsibility 
for oversight, and that is the purpose of the hearing today. 
But as part of our responsibility, we have to give your 
agencies the tools you need to carry out your job.
    So I want to ask this question, and rather than have you 
respond here, I want you to think about it and come back to us. 
What authority and what funding do you need in order to clean 
up the uranium contamination of the Navajo Nation and to 
address the health problems resulting from that contamination?
    I think that we need to have a number of things done 
simultaneously. The Federal Government needs to conduct a 
comprehensive health assessment of the risk posed to the health 
of the Navajo people by the contamination from uranium mining 
and milling. Second, the U.S. EPA should conduct detailed site 
assessments at the priority mine sites, at least basic 
assessments at every abandoned mine site. Rigorous sampling of 
groundwater at these sites is essential.
    Third, where we have the data, we need to conduct cleanups. 
Work has to be initiated or accelerated. And in consultation 
with Navajo homeowners, U.S. EPA needs to remove occupied 
radioactive homes and provide replacement homes. Major surface 
and groundwater remediation efforts must begin at the Northeast 
Churchrock Mine site, and the Navajo people shouldn't have to 
wait 60 years for groundwater contamination from uranium mills 
to be cleaned up.
    If the Department of Energy needs an extension of statutory 
authority to clean up the Tuba City site, it is our job to get 
you that authorization, and we will do it. Going forward, the 
Federal agencies need to coordinate your actions and work in 
close cooperation with the Navajo Nation government. What I 
would suggest to all of you is to have a meeting, to proceed 
with trying to figure out how to deal with this problem. We are 
going to be in session on December 12th. I am going to ask you 
all to come back on December 12th, not for a hearing, but at 
least for a meeting, so that we can get a progress report, to 
find out where you are, what authorities you need, what help 
you need, how it is being coordinated.
    I really don't want to hear EPA say it is DOE and DOE say 
it is the Indian Health program, and the Bureau of Indian 
Affairs to say it is not our job because we don't have the 
expertise or the budget. This is a Federal Government 
responsibility. All of us need to take it seriously. I know you 
have specific budgets and specific statutory responsibility. I 
want to remove this from the traditional way of not doing 
things with different bureaucracies stymied by the others.
    Come in here in December 12th and tell us what you need to 
get the job done. Then we will see where we go from there.
    So that is my request to all of you, specifically tell us 
what authority, what funding, what coordination must be done 
between your agencies and with the Navajo Nation.
    Mr. Cummings. Will the chairman yield?
    Chairman Waxman. Yes.
    Mr. Cummings. Just very briefly, Mr. Chairman.
    Mr. Chairman, I want to thank you for doing what you just 
did, to hold feet to fire so we can get something done. One of 
the things that I noticed is that agencies have a tendency to 
make promises, and then they wait, they know we are not going 
to get back to them for another 2 years. So then nothing gets 
done. But I really appreciate your doing what you just did.
    Chairman Waxman. Thank you very much. It is not the fault 
of each individual agency or each individual witness. It is 
everybody's fault that we are not getting this done. We will 
jump in the pool with you and take our responsibility 
seriously. So let's figure out what to do.
    We will see you all on December 12th. It won't be a public 
hearing, it will be a private meeting. Then we will decide 
whether we need more public hearings after that.
    One other thing. I want to indicate to you that our staffs, 
on a bipartisan basis, are going to send you further questions 
to respond to in writing. We would expect you to answer those 
questions so we can have them for the record.
    That concludes our business. The hearing is now adjourned.
    [Whereupon, at 2:15 p.m., the committee proceeded to other 
business.]
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T5611.015
    
    [GRAPHIC] [TIFF OMITTED] T5611.016
    
    [GRAPHIC] [TIFF OMITTED] T5611.017
    
    [GRAPHIC] [TIFF OMITTED] T5611.018
    
    [GRAPHIC] [TIFF OMITTED] T5611.019
    
    [GRAPHIC] [TIFF OMITTED] T5611.020
    
                                 <all>

</pre></body></html>
